No. ____________

IN THE SUPREME COURT OF THE UNITED
STATES

GREGORY OWENS
Petitioner
v.
UNITED STATES OF AMERICA
Respondent

PETITION FOR WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS FOR THE
FIRST CIRCUIT

Sarah A. Churchill, Esq.
Bar No. 304197
Nichols & Churchill, P.A.
1250 Forest Avenue
Portland, ME 04103
schurchill@nicholschurchill.com
(207)879-4000

Question Presented
Does the Fourth Amendment protect a
person’s property from a search without a warrant?

2

Table of Contents
Opinion Below ........................................................... 8
Jurisdiction ............................................................... 9
Constitutional Provisions and Statutes Involved.... 9
Statement of the Facts ........................................... 10
Argument ................................................................ 17
Conclusion ............................................................... 36
Appendices:
Appendix A: Decision from the First Circuit Court of
Appeals ................................................................... 38
Appendix B: Decision from the United States District
Court........................................................................ 88
Appendix C: Order Denying Motion for Rehearing
and Hearing En Banc ........................................... 166

3

Table of Authorities
Case Law:
United States Supreme Court:
California v. Ciralo, 476 U.S. 207 (1986)............... 29
Collins v. Virginia, 138 S. Ct. 1663 (2018) ..... 17, 19,
20, 24, 26.
Florida v. Jardines, 469 U.S. ___, 133 S.Ct. 1409,
1414 (2013) ...................................... 27, 28, 30, 33, 34
Horton v. California, 496 U.S. 128 (1990) . 18, 19, 21
Kentucky v. King, 563 U.S. 452 (2011) 18, 19, 21, 34.
Missouri v. McNeely, 569 U.S. 141 (2013). ..... 18, 22,
23, 25.
Payton v. New York, 445 U.S. 573, 590 (1980) ..... 19.
Schmerber v. California, 384 U.S. 757 (1966) ...... 23.

4

United States v. Dunn, 480 U.S. 294 (1987) ... 31, 33.
United States v. Jones, 132 S.Ct. 945 (2012) . 33, 35.
Welsh v. Wisconsin, 466 U.S. 740 (1984) .............. 21.
United States Circuit Courts:
United States v. Brown, 510 F.3d 57
(1st Cir. 2007) ................................................... 31, 33.
United States v. Deihl, 276 F.3d 32 (1st Cir. 2002) 33.
United States v. Lundin, 817 F.3d 1151 (9th Cir.
2016) ....................................................................... 27.
United States v. Wells, 648 F.3d 671
(8th Cir. 2011) ........................................................ 33.
United States v. Owens, 917 F.3d 26
(1st Cir. 2019) ..................................................... 8, 18.

5

Statutes:
18 U.S.C. §924 ......................................................... 10
18 U.S.C. §2261 ......................................................... 9
28 U.S.C. §1254(1) .................................................... 9

6

No. ____________

IN THE SUPREME COURT OF THE UNITED
STATES

GREGORY OWENS
Petitioner
v.
UNITED STATES OF AMERICA
Respondent

PETITION FOR WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS FOR THE
FIRST CIRCUIT

Petitioner, Gregory Owens, respectfully
requests that a writ of certiorari issue for a full
review of the decision of the United States Court of
Appeals for the First Circuit filed on February 26,
7

2019, for which rehearing was denied on March 27,
2019.
Opinion Below
The United States Court of Appeals for the
First Circuit issued an opinion below which was
published on February 26, 2019 and is attached in
Appendix A. See United States v. Owens, 917 F.3d 26
(1st Cir. 2019). The Court of Appeals reviewed a
decision of the United States District Court for the
District of Maine. See Appendix B. The Petitioner
moved for reconsideration of that opinion on March
12, 2019 which was denied was denied on March 27,
2019. Appendix C.

8

Jurisdiction
This Court has jurisdiction pursuant to 28
U.S.C. § 1254(1). The judgement sought to be
reviewed was entered on March 27, 2019 by the
United States Court of Appeal for the First Circuit
after a Motion for Rehearing and Rehearing En Banc
was denied.
Constitutional Provisions and Statutes
Involved
The United States Constitution, Amendment 4
provides in part: “The right of the people to be secure
in their persons, houses, papers, and effects, against
unreasonable searches and seizures, shall not be
violated…” U.S. Const. amend IV.
Petitioner was charged by indictment with
Interstate Domestic Violence, in violation of 18
U.S.C. §2261(a)(1) and (b)(2) and Discharge of a

9

Firearm During and in Relation to a Crime of
Violence, in violation of 18 U.S.C. §924(c)(1)(A)(iii).
Statement of the Facts
On December 18, 2014 a masked intruder
entered the home of Steve and Carol Chabot in Saco,
Maine. This intruder, armed with a handgun,
proceeded through the Chabot’s residence and up the
stairs to the second floor of the home. Carol Chabot
had heard a noise and got up out of bed to
investigate. Mrs. Chabot left her bedroom and
walked toward the top of the stairs. When she was
near the top of the stairs she heard the sound of
breaking glass. Mrs. Chabot checked on Rachel
Owen, a house guest and friend who was staying the
night. Mrs. Chabot came from the guest bedroom
and back toward the top of the landing to see a look
of horror on her husband, Steve Chabot’s face. .

10

Mrs. Chabot was terrified and ran into a spare
bedroom/office nearby.

Mrs. Chabot slammed and

locked the door behind her and hid under a desk in
the room. As Mrs. Chabot slammed the door closed
the intruder tried to bash it open. The intruder tried
to bash through the door to the room where Mrs.
Chabot was 3 or 4 times. Mrs. Chabot then locked
the door and hid under a desk inside the room. Mrs.
Chabot never saw the intruder.
Steve Chabot came out of the master bedroom
and saw an intruder near the top of the stairs.

The

intruder was pouncing up the stairs and had a gun in
his hand.

The intruder was wearing a mask and

had dark clothing on.

Mr. Chabot could only see the

intruder’s eyes and noted that the person had glasses
on.

The intruder was wearing gloves and holding

the gun in his right hand.

11

Unable to open the spare bedroom/office door
where Mrs. Chabot was hiding the intruder
proceeded to the room directly to the left of the spare
bedroom where Rachel Owens was sleeping and shot
Rachel Owens while she was lying in bed.

Mrs.

Owens was interviewed and described her attacker
as having a Jamaican look.

The intruder came out

of Rachel Owens’ room to see Steve Chabot standing
near the partially open door of the master bedroom.
Steve Chabot slammed the master bedroom door
closed. The intruder tried to kick in the master
bedroom door and when they were unable to do so
fired several rounds from the handgun through the
door. Three of the rounds struck Steve Chabot.
Steve Chabot made his way around the bed,
grabbed the telephone and called 911 while hiding in
his bedroom closet.

The 911 call came in at 2:47

am. Law enforcement arrived at the Chabot’s
12

residence. The first officer to arrive, Sergeant Kyle
Moody, saw a vehicle, a Nissan Pathfinder, leaving
the Chabots’ neighborhood. Mr. Owens was known
to drive a Hyundai.

Law enforcement gathers video

recordings from local businesses to review and see if
Mr. Owens vehicle would be spotted. After review of
said videos law enforcement did not see a vehicle
matching the description of Mr. Owens vehicle.
Steve Chabot exited the residence through the front
door at the direction of the 911 operator. Mrs.
Chabot came out of the residence after Mr. Chabot
was taken to an ambulance waiting nearby. Law
enforcement entered the residence and located
Rachel Owens gravely injured in the other bedroom.
The intruder was nowhere to be found and was not
confronted by law enforcement as they made their
way to the Chabot’s’ residence.

13

Rachel and Gregory Owens resided in
Londonderry, New Hampshire. Rachel Owens and
Carol Chabot had been friends growing up and Mrs.
Owens had been spending a few days visiting Carol
Chabot at her home in Saco, Maine when this
incident occurred.

Law enforcement, immediately,

suspected and began investigating Gregory Owens as
a suspect. At approximately 4:20 am the Saco Police
Department contact their counter parts in
Londonderry, NH in order to determine Mr. Owens
whereabouts.
Officers from the Londonderry, New
Hampshire police department drove to Mr. Owens
neighborhood at approximately 5:20 am and parked
their car in a turnabout at the end of the street and
under the cover of darkness made their way down
the street to Mr. Owens residence. The officers were

14

under instruction not to make their presence known
to Mr. Owens should he be home at the residence.
The officer approached Mr. Owens home, went up the
driveway to the garage door and placed their hand on
the hood of Mr. Owens vehicle and felt that the hood
of the vehicle was warm. The officers also saw light
turn on inside the residence indicating that someone
was present inside and retreated down the street to
their vehicle..
Mr. Owens home was located at the end of a
dead end street.

The property is bordered on one

side by the road, on one side by small trees and
shrubs and on the other two sides by forest. This
home is not located in an area where the general
public passes by on a regular basis. The area was
remote enough that law enforcement was concerned
about their presence being detected and thus the
decision was made for them to abandon their
15

unmarked vehicle down the street and approach on
foot. The vehicle that was search was no more than
10 feet from the house when the search occurred.
Law enforcement approached Mr. Owens driveway
from the lawn of his property. As a result the police
officers travelled across a portion of the lawn and
took a path that was different from that a normal
invitee would traverse to access Mr. Owens’ front
door.
Shortly after the officers felt the hood of Mr.
Owens’ vehicle and retreated up the street Mr.
Owens exited his residence, got into his vehicle and
headed toward a convenience store.

After he exited

the store Mr. Owens was confronted by numerous
law enforcement officers and told that his wife had
been shot in Maine. Mr. Owens collapsed to the
ground and after taking some time to regain his
composure was taken to the Londonderry Police
16

Department and interview by law enforcement. Mr.
Owens waived his Miranda rights and agreed to
answer questions from the officers. Mr. Owens
denied involvement in the shooting.
During the motion hearing in the trial court
the Government conceded that Officer Dyer went
onto the lawn and driveway of Mr. Owens’ residence.
. Mr. Owens residence was at the end of a dead end
road in a quiet residential neighborhood. The
driveway is in the front of the house and is relatively
short.

The driveway is shielded in part from the

neighbor’s home by shrubs and trees. The garage
provides direct entry into the home.
Argument
The decision of the United states Court of
Appeals for the First Circuit in this matter conflicts
with decisions of the United States Supreme Court in

17

Collins v. Virginia , 138 S. Ct. 1663 (2018); Kentucky
v. King, 563 U.S. 452 (2011); Horton
v. California, 496 U.S. 128, (1990) and Missouri v.
McNeely, 569 U.S. 141 (2013). The lower court’s
decision in this matter also implicates a questions of
exceptional importance – namely when exigent
circumstances justify, after the fact, entry onto
private property for the purposes of conducting a
search for evidence that naturally degrades or
dissipates over time.
The First Circuit’s decision in this matter
determined that the search of Mr. Owens‘ vehicle in
his driveway was reasonable under the exigent
circumstances exception to the warrant requirement
of the Fourth Amendment. United States v. Owens,
917 F.3d 26, 37 (1st Cir. 2019). Exigent circumstance
can provide a recognized exception to the
requirement that law enforcement obtain a warrant
18

prior to conducting a search of an individual’s
property or curtilage. See Payton v. New
York, 445 U.S. 573, 590 (1980). However, where an
officer has created an exigency or violated the Fourth
Amendment in arriving at the place where the
evidence is collected or the consent is obtained the
exigency is null and void. See Horton
v. California, 496 U.S. 128, 136-140 (1990) and
Kentucky v. King, 563 U.S. 452, 462 (2011).
In Horton the Supreme Court ruled that
weapons that constituted evidence of a crime which
were discovered in plain view during the execution of
a valid search warrant that did not authorize or
reference weapons was lawful as the reason that the
officers were in the place to view the weapons was a
valid warrant that they were executing within its
stated scope at the time of the plain view discovery.
Id. at 141-142.
19

In Collins v. Virginia, 138 S. Ct. 1663 (2018) a
law enforcement officer entered into the driveway of
a residence to search a motorcycle. Id. Slip Op. at 2.
The motorcycle was sitting in a partially enclosed
section of the driveway a few yards from the
perimeter of the house. Id. Slip Op. at 6. The
motorcycle was visible from the street where it was
parked. Id. Slip Op. at 2. In ruling that the search
in Collins was unlawful it noted: “In physically
intruding on the curtilage of Collins’ home to search
the motorcycle, Officer Rhodes not only invaded
Collins’ Fourth Amendment interest in the item
searched, i.e., the motorcycle, but also invaded
Collins’ Fourth Amendment interest in the curtilage
of his home. The question before the Court is
whether the automobile exception justifies the
invasion of the curtilage. The answer is no.” Id. at
Slip Op. 6-7.

20

In this case Officer Dyer trespassed on Mr.
Owens’ lawn in order to gain access to the driveway
to touch the vehicle. This all occurred in a scenario
where Officer Dyer and Officer Lee went to Mr.
Owens Londonderry residence under strict orders not
to make contact with him, but to merely determine if
he was at the residence. In this matter the search
took place after and during a trespass on Mr. Owens
property and for that reason is not congruous with
the King or Horton or Collins decisions from the
United States Supreme Court.
The First Circuit also analyzes the exigency in
terms of the dissipation of heat from the engine of
Mr. Owens‘ vehicle. “Courts have permitted
warrantless home arrests for major felonies if
identifiable exigencies, independent of the gravity of
the offense, existed at the time of the arrest.” Welsh
v. Wisconsin, 466 U.S. 740, 754 (1984). Gravity of
21

the crime at issue is a factor to be considered
regarding whether the warrantless entry into a home
to effectuate an arrest is justified, but it isn’t the only
factor to be considered. Id. Furthermore, in the case
at bar there was no evidence connecting Mr. Owens
to any offense at the time the search was conducted.
So while the officers involved were investigating a
serious offense – they had no evidence the any
evidence of said offense would be found in or on Mr.
Owens’ vehicle.
The First Circuit decision also likens the
evanescence of heat present in the hood of Mr.
Owens vehicle to the dissipation of alcohol in the
blood stream. In Missouri v. McNeely, 569 U.S. 141
(2013) the Supreme Court rules that the natural
dissipation of alcohol from the blood stream does not,
in and of itself, create an exigency that justifies a
warrantless blood draw. Id. at 145. In other words
22

other facts are needed to justify an exigency beyond
the naturally occurring condition of metabolization of
alcohol. Id. at 156. The First Circuit cites nothing
other than the dissipation of the heat from Mr.
Owens’ vehicle as the exigency making this matter
directly analogous to McNeely and missing the
additional information present in Schmerber v.
California, 384 U.S. 757 (1966). In Schmerber there
was evidence in the record that the officer reasonably
feared that investigating the accident scene and
getting a warrant would result in the loss of
evidence. Id. at 770-771. There is no evidence in the
record of this case that Officer Dyer searched Mr.
Owens’ vehicle without a warrant because he had no
time or opportunity to get a warrant or that the time
that it would take to do so would result in the
complete loss of the evidence. In fact, Officer Dyer’s
entry onto Mr. Owens’ property was not initially for

23

the purpose of searching Mr. Owens’ vehicle. At the
point in time where Officer Dyer and Office Lee
approach Mr. Owens residence there is no reason to
suspect Mr. Owens was involved in the commission
of this crime or that evidence would be found in or on
his vehicle. This is fitting with the fact that Officer
Dyer and Officer Lee were task specifically with only
determining if Mr. Owens was home without
revealing their presence. Officer Dyer, furthermore,
had no reason to believe that Mr. Owens would be
leaving his house in the early morning hours and
therefore the concern that the vehicle would be used
again compromising the heat on the hood at the time
of the search is a red herring. It was more
reasonable for Officer Dyer to think that Mr. Owens
was returning to bed at that time of morning. The
seriousness of the offense being investigated does
not, alone, justify exigent circumstance for a

24

warrantless search of Mr. Owens property. Absent
articulable facts in the record that show more than
the naturally occurring dissipation of heat the
principles of McNeely must control and the search of
Mr. Owens’ vehicle must be deemed to be
unreasonable.
In Collins v. Virginia, 138 S.Ct. 1663 (2018) a
law enforcement officer entered into the driveway of
a residence to search a motorcycle. Id. Slip Op. at 2.
The motorcycle was sitting in a partially enclosed
section of the driveway a few yards from the
perimeter of the house. Id. Slip Op. at 6. The
motorcycle was visible from the street where it was
parked. Id. Slip Op. at 2. A visitor to the property
would need to walk partially up the driveway to get
to the front door of the home. Id. Slip Op. at 6. With
all of this in mind the Supreme Court ruled that the
portion of the driveway where the motorcycle was
25

parked was curtilage. Id. Slip Op. at 6. As part of
their reasoning the Supreme Court indicated “It is of
no significance that the motorcycle was parked just a
“short walk up the driveway.’... The driveway was
private, not public, property, and the motorcycle was
parked in the portion of the driveway beyond where a
neighbor would venture…” Id. Slip Op. at 10, fn. 3.
In addition, the fact that the area of the driveway
was visible from the public street was not dispositive
of the issue – “the ability visually to observe an area
protected by the Fourth Amendment does not give
officers the green light to physically intrude on it.”
Id.
While it is true that a person approaching Mr.
Owens’ front door would need to enter on a portion of
the driveway, all be it a small one, no one would
expect visitors in the early morning hours around
5:00 am. As such, any license granted for a “knock
26

and talk” based on the fact that a visitor would need
to be on the curtilage in order to access the front door
would not apply in the early morning hours during
which the events in this case unfolded. United States
v. Lundin, 817 F.3d 1151, 1160 (9th Cir. 2016).
The determination that the area of Mr. Owens’
residence trespassed upon by Officer Dyer was not
curtilage by the trial court was erroneous. This is
particularly true in light of the Supreme Court’s
decision in Collins.
1. Entry onto Mr. Owens’ property
constituted a trespass.
The entry onto Mr. Owens’ property, and
separately the touching of his vehicle, constituted a
trespass and in line with Florida v. Jardines, 469
U.S. ___, 133 S.Ct. 1409, 1414 (2013). Appellant’s
Brief at 19-22. The Government conceded in the

27

lower court that Officer Dyer entered Mr. Owens’
lawn in order to make his way to the driveway and
did so for an investigative purpose. App. at 140.
To the extent that the Government is arguing
that Mr. Owens’ driveway was short and a visitor
needed to access a portion of the driveway in order to
get to the front door is being relied upon as factor in
favor of excluding the driveway from the definition of
curtilage they are ignoring the fact that the purpose
of the entry is a highly relevant factor to the
determination of whether the scope of the license to
enter is exceeded. Jardines, 133 S.Ct. at 1416-17.
The factors that the Court considers in the
determination of whether a location constitutes
curtilage of a residence must be judged in light of the
trespass principles enumerated in Jardines. In other
words, the purpose of the visit will determine the

28

type of license to enter granted, if any. A law
enforcement officer who enters a private property
with only the intent to search a vehicle thereon has
been granted no license by the homeowner.
Officer Dyer first entered onto Mr. Owens’
lawn. This area of the lawn in front of the home was
separated from the street by some bushes and
shrubs. App. at 2811. An ordinary invitee to the
property would not be found on this section of the
lawn in their approach to the front door. In fact
Officer Dyer testified that the approach to the home
was made from that area because it would conceal
his presence from the front door.
The Fourth Amendment of the United States
Constitution protects people from unreasonable
searched. U.S. Const. Amend. 4. “When it comes to
the Fourth Amendment, the home is first among

29

equals.” Florida v. Jardines, 469 U.S. ___, 133 S.Ct.
1409, 1414 (2013). The area immediately
surrounding the home, the curtilage, is subject to
Fourth Amendment protection. Id. Curtilage is “the
area around the home [that] is “intimately linked to
the home, both physically and psychologically and is
where privacy expectations are most heightened.” Id
(internal quotations omitted)(citing California v.
Ciralo, 476 U.S. 207, 213 (1986).
In order to determine whether an area outside
of the home is part of its curtilage the Court must
examine four factors: “1. The proximity of the area
claimed to be curtilage to the home, 2. Whether the
area is included within an enclosure surrounding the
home, 3. The nature of the uses to which the area is
put, and 4. The steps taken by the resident to protect
the area from observation by people passing by.”

30

United States v. Brown, 510 F.3d 57 (1st Cir. 2007).
This is a fact specific inquiry.
In United States v. Dunn, 480 U.S. 294 (1987),
law enforcement entered upon a suspect’s property
and looked in a barn that was located 50 yards from
a fenced enclosure surrounding the defendant’s
house. The Court in Dunn pointed toward four
factors to look at in order to determine whether a
structure is curtilage of the residence and therefore
subject to the same Fourth Amendment protections.
Id. at 301. The Court also noted that these are not
the only factors to be considered and that there is no
magic formula for these determinations. Id.
The first factor reviewed in Dunn it the
proximity of the area in controversy to the residence.
Id. The second is the whether there is an enclosure
surrounding the area. Id. The third is the use the

31

area is put to. Id. The fourth is whether the owner
has taken pains to shield the area from public view.
Id. These factors are applied as part of a case by
case determination of whether a particular area is
curtilage and the ultimate guiding principle is
whether there is an expectation of privacy in the
area searched – in other words should the area in
questions be treated like a part of the home itself.
Id. at 300.
Applying these four factors Mr. Owens
driveway is curtilage. First, the area of the driveway
that the officer entered upon was directly in front of
the garage and the closest portion of the driveway to
the home. Second, while there is no fence around the
property the photographs in evidence show that
there are trees bordering two sides of the property
and trees and shrubs planted between Mr. Owens’
home and the neighboring property. Third, the area
32

in question is used as an access point to the garage.
Fourth, Mr. Owens’ private residence is located on a
dead end street which is not an area that the public
ordinarily passes by.
Application of these factors must also be
guided by subsequent case law. When looking at
whether Mr. Owens’ driveway, which was accessed
by law enforcement via his lawn, which is clearly
private property, is curtilage the factors in Brown
and Dunn must be read in the context of Florida v.
Jardines, 133 S.Ct. 1409 (2013) and United States v.
Jones, 132 S.Ct. 945 (2012). A driveway can be part
of the curtilage to the home. See United States v.
Deihl, 276 F.3d 32, 39 (1st Cir. 2002) and United
States v. Wells, 648 F.3d 671, 677 (8th Cir. 2011).
Once a law enforcement investigation that
intrudes into a constitutionally protected area such

33

as one described above the inquiry turns to whether
they were given permission, either expressly or
impliedly, to do so. Jardines, 133 S.Ct. at 1415. “A
police officer not armed with a warrant may
approach a home and knock, precisely because that is
‘no more than any private citizen might do.’” Id. at
1416 (quoting Kentucky v. King, 568 U.S. ___, 131
S.Ct. 1849, 1862 (2011)). Whether a law enforcement
officer has an implied license to enter the curtilage of
a home will depend upon the reason for the entry
was made. Id. If the behavior of law enforcement
reveals that their intent is to search the property it is
outside the scope of what a traditional licensee would
believe they were authorized to do. Id. at 1417.
In this matter law enforcement was instructed
to go to Mr. Owens home and not make contact with
him directly. As such this is not a situation where an
officer was heading up the driveway to the door of
34

the residence to make contact with the occupant and
merely placed his hand on the vehicle when passing
by. The purpose of this visit was to search and
gather information regarding whether Mr. Owens
was at the residence, not to make notification to Mr.
Owens that his wife was the victim of a shooting. No
reasonable licensee would believe that they had the
right to snoop around in someone’s driveway and lay
hands upon their vehicle. Therefore, this search
runs afoul of the Fourth Amendment.
Mr. Owens vehicle itself is subject to
protection by the Fourth Amendment from being
trespassed upon. United States v. Jones, 564 U.S. __,
132 S.Ct. 945, 949 (2012). In Jones law enforcement
applied a GPS tracking device to a vehicle while it
was parked in a public parking lot. Id. at 948. The
attachment of the GPS unit to this vehicle was a
search for Fourth Amendment purposes. Id. at 950.
35

While observation of a vehicle traveling in public
would not constitute a search or a violation of a
person’s expectations of privacy the touching of the
vehicle constitutes a trespass and therefore is a
search for the purposes of the Fourth Amendment.
Id. at 953-54.
The entry onto Mr. Owens property without
permission on the morning of December 18, 2014
constituted a trespass. When a law enforcement
officer placed his hand on Mr. Owens’ vehicle he
conducted a search that he was not entitled to
conduct and which violated Defendant’s rights under
the Fourth Amendment.
Conclusion
Petitioner requests that this Honorable Court
grant this Petition for a Writ of Certiorari to the
United States Court of Appeal for the First Circuit

36

because the decision of the Court of Appeals runs
counter to the Fourth Amendment to the United
States Constitution.
Dated: June 25, 2019

______________________________
Sarah A. Churchill, Esq.
Bar No. 304197
Nichols & Churchill, P.A.
1250 Forest Avenue
Portland, ME 04103
schurchill@nicholschurchill.com
(207)879-4000

37

Appendix A
United States Court of Appeals For the First Circuit
No. 16-1945
UNITED STATES OF AMERICA,
Appellee,
v.
GREGORY OWENS,
Defendant, Appellant.
APPEAL FROM THE UNITED STATES DISTRICT
COURT FOR THE DISTRICT OF MAINE
[Hon. Nancy Torresen, U.S. District Judge]
Before
Howard, Chief Judge, Torruella and Thompson,
Circuit Judges.
Sarah A. Churchill, with whom Nichols &
Churchill, P.A., was on brief, for appellant.
John M. Pellettieri, Attorney, Appellate
Section, Criminal Division, U.S. Department of
Justice, with whom Sangita K. Rao, Attorney,
Appellate Section, Criminal Division, John P.
Cronan, Acting Assistant Attorney General,
Criminal Division, Matthew S. Miner, Deputy
38

Assistant Attorney General, Criminal Division,
Halsey B. Frank, United States Attorney, Darcie
McElwee, Assistant United States Attorney, and
James W. Chapman, Assistant United States
Attorney, were on brief, for appellee.
February 26, 2019
TORRUELLA, Circuit Judge. This is a case
about a double life, an attempted uxoricide, and
excellent police work. Defendant-Appellant Gregory
Owens ("Owens") was convicted of interstate
domestic violence in violation of 18 U.S.C. § 2261(a)(1)
and (b)(2); and discharge of a firearm during and in
relation to a crime of violence in violation of 18 U.S.C.
§ 924(c)(1)(A)(iii). He was sentenced to life in prison.
On appeal, Owens challenges the sufficiency of
evidence supporting his convictions, the
reasonableness of his sentence, and the district court's
denial of his pretrial motions seeking to suppress
evidence and dismiss the indictment on double

39

jeopardy grounds. After careful review, we find
Owens's convictions supported by sufficient evidence,
his sentence substantively reasonable, and the
motions for suppression and dismissal properly
denied. Seeing no reason to vacate Owens's
convictions or sentence on the grounds that he has
presented, we affirm.
I.

BACKGROUND

A.

Factual Background
1.

The Home Invasion

In the early morning hours of December 18,
2014, at approximately 2:45 a.m., Carol Chabot
("Carol") awoke to a shuffling noise coming from the
downstairs of her two-story house in Saco, Maine.
Sensing something was not right, she woke her
husband, Steve Chabot ("Steve"), who lay beside
her. Steve, however, did not hear the noise but told
Carol "it's probably Rachel" who caused the noise —
40

with "Rachel" being Rachel Owens ("Rachel"), a
family friend who was staying the night. Then Steve
rolled over to go back to sleep. Undeterred, Carol got
out of bed to investigate.
As she walked down the upstairs hallway,
toward the spare bedroom where Rachel was
staying, Carol heard a second noise -- this time the
loud sound of glass shattering. With haste, she
looked into the spare bedroom and noticed Rachel
was sound asleep in bed. Steve also heard the loud
noise and hurried out of bed to check what was going
on. He peeked out of his bedroom towards the
staircase and saw an intruder racing up the stairs
with a gun in his right hand. The intruder, later
identified as Owens, was approximately 5 feet 9
inches tall with a slim, athletic build; he wore dark
clothing, gloves, and a black mask with a single
opening at the eyes and glasses protruding from it.

41

Steve shouted an expletive at the intruder and
dashed back into the master bedroom. Carol, who
did not see the intruder but saw a look of horror on
her husband's face, ran into a third bedroom used as
a home office and barricaded herself inside. The
intruder followed her and tried to force his way into
the room, but, after a few failed attempts, suddenly
stopped.

He then walked toward the room where

Rachel lay and fired at her three times, hitting her
in the head, arm, and torso.
Having heard the gun shots, Steve peeked out
of the master bedroom again. He saw the intruder
about two feet away, heading towards him. They
looked at each other face to face. Steve immediately
slammed the door shut and held his arm against it.
Undaunted, the intruder kicked the door in, looked
inside through the now slightly-opened doorway, and
fired shots through the door, striking Steve in the

42

arm, neck, and rib area. 1 The intruder then
abandoned the Chabot residence. He did not take any
valuables with him.
2.

The Crime Scene

In response to a 911 call from Steve Chabot received
at 2:47 a.m., police arrived at the Chabot residence.
During their investigation of the crime scene, officers
learned that the intruder gained entry into the
garage through a door located in the back of the
house, and into the interior of the Chabot residence
through a door located in the garage that led to the
kitchen. The upper part of this garage door was
double-paned glass, sectioned into nine squares by
wood framing. The intruder broke the outer pane of
the lower left square of glass, leaving glass shards
scattered on the floor and separating the inner pane,
1 Both Rachel and Steve survived the incident, but it left Rachel
with a bullet lodged in her brain and severely limited use of her
right hand.

43

which remained intact, from the door, thereby
creating a gap that allowed the intruder to reach in and
unlock the deadbolt. Officers retrieved human hair
from the area between the shattered outer pane of
glass and the inner pane of glass, and swabbed the
area for DNA.
Police officers also recovered numerous .9mm
shell casings stamped "WCC 1987," later identified
as 27-year-old Western Cartridge Company casings,
from the second floor of the house.
Finally, while inspecting the periphery of the
Chabot residence, officers found a footprint in the
damp dirt outside the first-floor window near the
garage and proceeded to make a cast of it.
3.

Search, Intervention, and Interview

At around 5:00 a.m., Maine police officers
informed New Hampshire law enforcement of the
shooting at the Chabot residence.

44

Two New

Hampshire police officers, Randy Dyer ("Officer
Dyer") and

Keith

Lee

("Officer

Lee"),

were

instructed to visit Owens's residence in the town of
Londonderry to verify the presence of his two
vehicles. They were, however, instructed not to
make contact with Owens. At approximately 5:20
a.m., the two police officers arrived at Owens's
neighborhood and parked their car at the beginning
of Winthrop Road, the dead-end street where
Owens's residence was located. Under the cover of
darkness, they began heading down Winthrop Road
toward the house. At around 5:24 a.m., before the
officers could reach their destination, a state trooper
patrol car with flashing blue lights drove near the
Owens residence. Contemporaneously, a light
visible from the house's front windows went off,
making the inside of the house go dark. The officers
stopped the trooper and instructed him to turn off

45

the flashing lights. After this, the officers, now
accompanied by

the

trooper,

continued

their

approach towards the residence. With Officer Lee
and the trooper providing cover, Officer Dyer
eventually made his way into the driveway, where
he placed his hand on Owens's Hyundai Santa Fe
SUV ("Owens's vehicle") and noticed its hood and
grill were warm. 2 The officers and trooper then
retreated back down Winthrop Road to the staging
area.
Several minutes after arriving at the staging
area, the officers saw Owens's vehicle exit Winthrop
Road and proceeded

to follow it. The vehicle

stopped at a nearby Circle K store, where Owens got
out. The officers approached Owens and told him

2 Owens's vehicle was parked on the upper part of his driveway,
with its nose facing the garage. The driveway is easily
observable and accessible to anyone passing by in the
neighborhood. It is not enclosed in any way, nor does it have
any fences or signs warning visitors to stay away.

46

that his wife had been shot. Owens acted surprised
and complained of chest pains, after which the
officers requested medical attention for him. While
waiting for the medical personnel to arrive, the
officers saw blood, a pair of boots with wet stains, and
a computer hard drive inside Owens's vehicle.
Owens agreed to go with the officers to the police
station for a videotaped interview (the "police
interview") after receiving medical assistance.
During the police interview, Owens provided a
detailed account of his night. Specifically, he
explained, albeit with some variation, that, after
speaking to his wife Rachel at around 9:15 p.m., he
went to bed, but got up a few times to work on his
computer on a proposal for a military consultancy
contract with the Ukrainian government that was
due the next day. In particular, Owens claimed that
at around 2:30 a.m. –- fifteen minutes before the

47

Chabot residence was broken into -- he sent an email to one of his colleagues regarding a tweak to
the proposal.
Owens also admitted to leaving his home on
multiple occasions throughout the course of the
night and early morning: first, to Circle K at around
12:30 a.m. to get a soda and cigarettes; then, to
Dunkin' Donuts between 4:15-4:45 a.m. to get coffee
and donuts; and finally, to Circle K again at
around 6:30 a.m. to grab another cup of coffee, at
which point he came in contact with officers Dyer
and Lee. Furthermore, he informed the interviewing
officers that he was a military retiree and had what
he described as an "arsenal" of weapons in his
house. After collecting some evidence (e.g., DNA
samples from his hands and mouth, clothes, etc.),
the police released Owens from custody.
4.

The Double-Life and Motive

48

To fully understand the motive behind
Owens's crime, we must look back to the preceding
decade. In 2005, Owens met Betsy Wandtke
("Wandtke"), a woman from Wisconsin, in a flight
back from a hunters' rights convention, which they
had both attended. 3 About three years later, their
relationship turned into an affair. As the affair
progressed, Owens and Wandtke began to spend
more time together -- up to ten days a month. Owens
considered Wandtke his "lover" and his "life." He
represented to her that he was in the process of
divorcing Rachel, which Wandtke was unable to
independently confirm, given that it was not true.
To partly explain his long absences when he was
actually with Rachel in New Hampshire, Owens told

3 From the moment they met, Wandtke was aware of Owens's
marriage.

49

Wandtke that his work as a military consultant
required him to travel and take part in covert
missions in places like Afghanistan.
While the affair continued, in or about 2011,
Rachel began to develop early-onset dementia. The
responsibility of having to care for her burdened
Owens, but did not deter him from continuing his
affair with Wandtke. Then, on December 3, 2014,
the affair came to an abrupt end. Due to an
inadvertent call from Owens's mobile phone,
Wandtke discovered that Owens was leading a
double-life -- his marriage with Rachel continued in
regular course. Wandtke confronted Owens about it
and told him their relationship was over. 4 After a

4 Owens was with Wandtke in Wisconsin a little over a week
before their breakup. They had plans to celebrate Thanksgiving
together. Notwithstanding, the weekend before the holiday,
Owens suddenly cancelled their plans, leaving Wisconsin for a
supposed emergency covert mission in Afghanistan. Then, on
December 3, 2014, Wandtke found out that Owens was not in

50

failed attempt to convince Wandtke that she
misunderstood the conversation she overheard,
Owens promised Wandtke he was going to make it
up to her.
A mere fifteen days after the breakup, the
events

at

the

Chabot

residence

unfolded.

Furthermore, in the days following the shooting,
Owens contacted Wandtke via e-mail and told her
that he was being "targeted" because of his work and
instructed her to "go dark" and not tell anyone about
their relationship. Then, on December 31, 2014 -thirteen days after the incident at the Chabot
residence and with his wife still recovering from a
gunshot wound to the head -- Owens unexpectedly
arrived at Wandtke's doorstep with a limousine and
roses. Owens and Wandtke celebrated New Year's

Afghanistan, but rather with Rachel in New Hampshire, as the
result of the accidental call made from Owens's cell phone.

51

Eve and spent time together during the first week
of 2015. On January 4, 2015, Owens returned to New
Hampshire. Shortly thereafter, on January 11,
2015, Owens was arrested.
B.

Procedural Background
On March 11, 2015, a grand jury indicted

Owens on two counts: interstate domestic violence
(Count One) and discharge of a firearm during and
in relation to a crime of violence (Count Two). On
July 6, 2015, Owens filed a motion to dismiss the
indictment on double jeopardy grounds; a motion to
suppress evidence gathered as the result of the
entry into his property, namely, into his driveway;
and, a motion to suppress search warrants issued
and executed during the investigation for his
vehicles and house, electronic items (e.g., an iPhone,
Magellan GPS, etc.), and an external hard drive and

52

a laptop computer in a Swiss Army case. 5

The

district court held an evidentiary hearing on
Owens's motion to dismiss and motions to suppress.
Evidence was presented, including the testimony of
the officer who touched Owens's vehicle, as well as
that of the officers who drafted the affidavits on
which

the

search

warrants

were

based.

Unpersuaded, the district court denied Owens's
5 Owens also moved to suppress DNA evidence obtained from a
blood sample collected at the Chabot residence, and from a
buccal swab law enforcement performed on his cheeks during
the police interview. Owens, however, eventually withdrew his
motion as to the blood sample collected from the Chabot
residence. Notwithstanding, we note that a heading in his brief
makes specific reference to the collection of the blood sample,
which may be interpreted to suggest his intent to still seek
suppression of the DNA test results obtained therefrom. The
Government attributes Owens's reference to the collection of
the blood sample in the heading to human error. It asserts that
the section with this heading actually deals with Owens's
challenge to a search warrant affidavit that mentions DNA
evidence obtained from Owens's police interview buccal swab.
See infra at 21-24. Based on the section's content, we agree.
Neither there nor anywhere else in his brief does Owens
develop an argument for suppression of the DNA test results
obtained from the collection of a blood sample at the Chabot
residence. Accordingly, Owens must "forever hold [his] peace"
with the Government's use of this evidence. United States
v. Zannino, 895 F.2d 1, 17 (1st Cir. 1990) (citations and internal
quotation marks omitted).

53

motions to dismiss and to suppress.
A ten-day jury trial followed. The jury found
Owens guilty of both counts. For these charges, the
district court sentenced Owens to life imprisonment
(240 Months on Count One and Life on Count Two).
Owens timelyappealed.
I.
A.

ANALYSIS
Motion to Suppress Evidence Gathered
as a Result of Officer Dyer's Entry into
the Driveway
We review a district court's denial of a motion

to suppress scrutinizing its factual findings for clear
error and its legal conclusions de novo. United
States v. Flores, 888 F.3d 537, 543 (1st Cir. 2018)
(citations omitted); United States v. Brown, 510
F.3d 57, 64 (1st Cir. 2007). To succeed on appeal, a
defendant "must show that no reasonable view of
the evidence supports the district court's decision."
United States v. Dunbar, 553 F.3d 48, 55 (1st Cir.

54

2009) (citations and internal quotation marks
omitted).
Owens argues that Officer Dyer's entry into his
driveway and touching of his vehicle parked therein
constituted an illegal search because the driveway
formed part of his house's curtilage and, therefore,
was protected from warrantless searches by the
Fourth Amendment. Accordingly, he sustains that the
district court erred in denying the suppression of
evidence obtained as a result of the search, namely,
any reference to the temperature of his vehicle's hood
and grill.
The Fourth Amendment provides in relevant
part that the "right of the people to be secure in their
persons, houses, papers,

and effects, against

unreasonable searches and seizures, shall not be
violated." U.S. Const. amend. IV. "When the
Government obtains information by physically

55

intruding on persons, houses, papers, or effects, a
search within the original meaning of the Fourth
Amendment has undoubtedly occurred." Florida v.
Jardines, 569 U.S. 1, 5 (2013) (citations and internal
quotation marks omitted).
For Fourth Amendment purposes, a house's
curtilage is "the area immediately surrounding and
associated with the home." Id. at 6 (citation and
internal quotation marks omitted). "The protection
afforded [to a house's] curtilage is essentially a
protection of families and personal privacy in an
area intimately linked to the home, both physically
and psychologically, where privacy expectations are
most heightened." California v. Cirilo, 476 U.S. 207,
212–13 (1986). Therefore, "[w]hen a law enforcement
officer physically intrudes on the curtilage to gather
evidence, a search within the meaning of the Fourth
Amendment has occurred…. Such conduct thus is

56

presumptively unreasonable absent a warrant."
Collins v. Virginia, 138 S. Ct. 1663, 1670 (2018)
(citation omitted).
In determining whether a specific part of a
house falls within its curtilage, we consider:
[1] the proximity of the area claimed
to be curtilage to the home, [2] whether
the area is included within an
enclosure surrounding the home, [3]
the nature of the uses to which the
area is put, and [4] the steps taken by
the resident to protect the area from
observation by people passing by. 6
Brown, 510 F.3d at 65 (alterations in original)
(quoting United States v. Diehl, 276 F.3d 32, 38 (1st
Cir. 2002) (quoting United States v. Dunn, 480 U.S.
294, 301 (1987))). In the instant case, however, we
need not address these factors given that, even
assuming that the driveway formed part of the
6 These factors are eponymously called the Dunn factors after
the Supreme Court's seminal opinion in United States v. Dunn,
480 U.S. 294 (1987). See, e.g., United States v. Bain, 874 F.3d
1, 14 (1st Cir. 2017).

57

house's curtilage, Officer Dyer faced exigent
circumstances when he entered the driveway and
placed his hand on Owens's vehicle, which
circumscribes his warrantless search within the
bounds of the Fourth Amendment. We explain.
Although generally a warrant must be secured
before searching a home and its curtilage, "the
warrant

requirement

is

subject

to

certain

reasonable exceptions." Kentucky v. King (King), 563
U.S. 452, 459 (2011) (citation omitted). These
exceptions are born out of courts' need to "balance
the privacy- related and law enforcement-related
concerns

to

reasonable"

determine
under

if

the

the

intrusion

Fourth

was

Amendment.

Maryland v. King, 569 U.S. 435, 448 (2013) (quoting
Illinois v. McArthur, 531 U.S. 326, 331 (2001)). "One
well-recognized

exception

applies

when

'the

exigencies of the situation make the needs of law

58

enforcement so compelling that [a] warrantless
search is objectively reasonable under the Fourth
Amendment.'"

King, 563 U.S. at 460 (quoting

Mincey v. Arizona, 437 U.S. 385, 394 (1978)); see also
Birchfield v. North Dakota, 136 S. Ct. 2160, 2173
(2016)("The exigent circumstances exception allows
a warrantless search when an emergency leaves
police insufficient time to seek a warrant." (citing
Michigan v. Tyler, 436 U.S. 499, 509 (1978))). This
exception,

commonly

known

as

the

"exigent

circumstances exception," has been applied in
instances where the "need 'to prevent the imminent
destruction of evidence'" justifies a warrantless
search. King, 563 U.S. at 460 (citing Brigham City,
Utah v. Stuart, 547 U.S. 398, 403 (2006)).
In determining whether exigent circumstances
justify a warrantless search, we examine the
totality of the circumstances. Missouri v. McNeely,

59

569 U.S. 141, 149 (2013). Accordingly, in the present
case we begin by considering the gravity of the crime
being investigated and the weather conditions at
the

time

of

the

search

to

ascertain

the

constitutionality of Officer Dyer's actions. Officer
Dyer was investigating a crime of the most serious
nature, a potential double-homicide, on a cold
December morning. See Welsh v. Wisconsin, 466
U.S. 740, 753 (1984); United States v. Veillette, 778
F.2d 899, 902 (1st Cir. 1985) (listing the "gravity of
the underlying offense" as one of the factors that
courts must consider "[i]n determining whether the
circumstances of a case fall into one of the
emergency conditions characterized as exigent
circumstances"). As conceded by Owens's counsel at
oral argument, the temperature in Londonderry,
New Hampshire at the time of the search was 30
degrees Fahrenheit. In this cold weather, it was

60

reasonable for Officer Dyer to believe that any
warmth emanating from the vehicle -- the evidence -would evanesce or be destroyed before he could
obtain a search warrant.
It is not unprecedented to make a finding of
exigency based on a naturally occurring event's
destructive consequence over critical evidence. In
McNeely, the Supreme Court recognized that the
"the natural dissipation of alcohol in the blood may
support a finding of exigency in . . . specific case[s]."
569 U.S. at 156. Such was the case in Schmerber,
where the Court concluded that "further delay in
order to secure a warrant after the time spent
investigating the scene of the accident and
transporting the injured suspect to the hospital to
receive

treatment would have threatened the

destruction of evidence" given that it would have
"negatively affect[ed] the probative value of the

61

[blood alcohol test] results." McNeely, 569 U.S. at
152 (citing Schmerber v. California, 384 U.S. 757,
770-71 (1966)).
We do not find it difficult to draw parallels
between the

exigent

circumstances found in

Schmerber and those in the instant case. Unlike
other "destruction-of-evidence cases" in which a
"suspect

has

control

over

easily

disposable

evidence," here, like in Schmerber, law enforcement
dealt with the type of "evidence [that]. . . naturally
dissipates over time in a gradual and relatively
predictable manner." Id. at 153. Just as the passing
of time negatively affected the probative value of the
blood-alcohol test in Schmerber, it negatively
affected the probative value of Officer Dyer's
gauging of the temperature of Owens's vehicle
through his sense of touch, and, as such, threatened
the destruction or loss of evidence. See id. at 152.

62

The natural dissipation of the vehicle's heat,
however, was not the only way the evidence could
have been lost in the present case. If Owens turned
on his vehicle's engine, as he eventually did, the
evidence would have likewise been destroyed.
Ignition would have made it practically impossible
for law enforcement to know, based on touch,
whether the vehicle was previously warm. In
deciding whether to enter the driveway and touch
Owens's vehicle, Officer Dyer was "forced to make [a]
split- second judgment[] -- in circumstances that
[were] tense, uncertain, and rapidly evolving."
United States v. Almonte-Báez, 857 F.3d 27, 31 (1st
Cir. 2017) (quoting King, 563 U.S. at 466). 7Because

7 Apart from knowing that Owens was being investigated in
relation to a double-shooting, officers Dyer and Lee were aware
that Owens had a military background and possessed firearms
in his house. Also, they did not want to be seen because their
instructions were to verify the presence of Owens's vehicles
without making contact with him.

63

a light inside Owens's house was shut off a few
minutes before his entry into the driveway, Officer
Dyer had an objectively reasonable basis to believe
Owens was awake and therefore capable of exiting
his house and turning on his vehicle at any moment,
thereby destroying the evidence. These inevitable
natural dissipation of the vehicle's warmth, support
a finding of exigency and, thus, of reasonableness as
to Officer Dyer's search. See Almonte-Báez, 857 F.3d
at 32 ("[T]he government . . . may invoke the exigent
circumstances exception when it can identify an
'objectively reasonable basis' for concluding that,
absent

some

immediate

action,

the

loss

or

destruction of evidence is likely." (citation omitted)).
Finally, the scope and intrusiveness of Officer
Dyer's

search

also

weigh

in

favor

of

its

reasonableness. See Maryland v. King, 569 U.S. at
448 ("Th[e] application of 'traditional standards of

64

reasonableness' requires a court to weigh 'the
promotion of legitimate governmental interests'
against 'the degree to which [the search] intrudes
upon an individual's privacy.'" (quoting Wyoming v.
Houghton, 526 U.S. 295, 300 (1999))). The scope of
Officer Dyer's search was limited to verifying the
temperature of Owens's vehicle, and its intrusiveness
was minimal -- Officer Dyer simply placed his hand
on the vehicle's hood and grill for a few seconds. Cf.
Schmerber, 384 U.S. at 770-72 (holding that
drawing a drunk-driving suspect's blood was
reasonable); Cupp v.

Murphy, 412 U.S. 291, 296

(1973) (holding that the "ready destructibility of the
evidence" and the suspect's observed efforts to
destroy it "justified the police in subjecting him
to the very limited search," the scraping of his
fingernails, which was "necessary to preserve the
highly evanescent evidence they found under his

65

fingernails"); Nikolas v. City of Omaha, 605 F.3d
539, 546 (8th Cir. 2010) (holding that the exterior
search of a garage, which warrants "protection
comparable to that afforded the curtilage of a
residence," by "look[ing] through the windows was
constitutionally reasonable").
In short, based on our fact-bound and casespecific inquiry, we conclude that Officer Dyer's
warrantless search of Owens's vehicle while parked
in his house's driveway did not offend the Fourth
Amendment because, within the totality of the
circumstances, it was objectively reasonable for
Officer Dyer to believe the search was necessary to
prevent the imminent destruction of evidence. 8

8 Even if we were to find that the district court erred in denying
Owens's motion to suppress evidence referencing the
temperature of his vehicle, we would deem such error harmless
beyond a reasonable doubt. See Chapman v. California, 386
U.S. 18, 24 (1967); see also Chambers v. Maroney, 399 U.S. 42,
53 (1970). As discussed in detail below, the Government
presented a plethora of evidence unrelated to the temperature

66

B.

Motion to Suppress the Search
Warrants

During the investigation of Owens's crimes, a
total of five search warrants were issued. 9 On
of Owens's vehicle that provided a more than compelling basis
for Owens's convictions. See infra at 26-29; see also United
States v. Jiménez, 419 F.3d 34, 42 (1st Cir. 2005) (finding
harmless error when erroneously admitted evidence "pale[d] in
light of the other evidence introduced at trial").
By the same token, the very limited evidence regarding
the temperature of Owens's vehicle was inconsequential and
cumulative. See Harrington v. California, 395 U.S. 250, 254
(1969) (recognizing that cumulative nature of contested
evidence is a factor that contributes to the conclusion that any
error in admitting the evidence was harmless). To the extent
that the warmth emanating from Owens's vehicle was
probative, it served to suggest that his vehicle had been
recently used. But it was essentially conceded that Owens had
left his house and driven his vehicle in the hours surrounding
the incident at the Chabot residence. Owens himself testified
that he left his house multiple times that night and early
morning. Still more, video surveillance footage placed him
outside of his house and at Dunkin' Donuts not long after the
time of the incident. Unsurprisingly, in its closing statement
the Government did not once meaningfully refer to the
temperature of Owens's vehicle.
Thus, viewed in context, the evidence that Owens's
vehicle felt warm when Officer Dyer touched it was simply
unessential to both the Government's case and the jury's guilty
verdicts. See United States v. Hasting, 461 U.S. 499, 506 (1983)
("Supervisory power to reverse a conviction is not needed as a
remedy when the error to which it is addressed is harmless
since by definition, the conviction would have been obtained
notwithstanding the asserted error.").
9Two

state courts, New Hampshire's Salem Circuit Court and
Maine's Biddeford District Court, and the United States

67

appeal, Owens argues that the district court erred
in denying his motion to suppress the evidence
seized pursuant to all the warrants, albeit on two
different grounds. He challenges the first four
warrants arguing that the affidavits on which they
were

based

information. 10

contained

false

or

misleading

Specifically, Owens sustains that

these four affidavits contain certain misstatements,
omissions, and inconsistencies that affected the
issuing judges' probable cause determinations.
Owens challenges the fifth warrant to the extent its
supporting affidavit relied on: (1) evidence seized

District Court for the District of Maine issued the search
warrants Owens challenges on appeal.
10 In his brief, Owens also posits that the district court erred
because on their face the search warrant affidavits did not
support a finding of probable cause and did not establish a
nexus between the locations to be searched and the items
sought. Owens, however, does not support this argument with
anything more than conclusory statements. Accordingly, we
deem it waived on appeal. Zannino, 895 F.2d at 17 (citations
omitted).

68

pursuant to one of the four prior "faulty warrants,"
or (2) the match between DNA collected from the
crime scene and the DNA obtained from the buccal
swab taken during the police interview, which Owens
avers was obtained "due to [his] uninformed and/or
involuntary consent." On these grounds, Owens
contends that we should invalidate the warrants or,
in the alternative, remand to the district court for a
hearing to "fully determine the depth and breadth"
of the purported inaccuracies. Wedisagre.
Affidavits supporting search warrants
are presumptively valid. United States v. Barbosa,
896 F.3d 60, 67 (1st Cir. 2018); United States v.
McLellan, 792 F.3d 200, 208 (1st Cir. 2015). A
defendant may "rebut this presumption and
challenge the veracity" of a warrant affidavit at a
pretrial hearing commonly known as a Franks
hearing. Barbosa, 896 Fd.3d at 67 (quotation and

69

citations omitted); see also Franks v. Delaware, 438
U.S. 154, 171 (1978).
To be entitled to a Franks hearing, however, a
defendant

must

first

make

two

"substantial

preliminary showings: (1) that a false statement or
omission in the affidavit was made knowingly and
intentionally or with reckless disregard for the truth;
and (2) the falsehood or omission was necessary to the
finding of probable cause." United States v. Rigaud,
684 F.3d 169, 173 (1st Cir. 2012) (citation and internal
quotation marks omitted). 11 A defendant's "failure to
make a showing on either of these two elements
dooms [his] challenge." McLellan, 792 F.3d at208.
In its order denying Owens's motion to
suppress the evidence obtained pursuant to the

11 These showings are referred to as the “intentionality” and
“materiality” prongs of the Franks test. See e.g., United States
v. Lull, 824 F.3d 109, 113-14 (4th Cir. 2016).

70

search warrants, the district court made a detailed
assessment

of

Owens's

claims

as

to

each

misstatement and omission he identified in the
affidavits. Order on Def.'s Mots. to Suppress and
Dismiss, United States v. Owens, No. 2:15-CR-55NT, 2015 WL 6445320, at *12-18 (D. Me. Oct. 23,
2015). In doing so, the district court concluded that
Owens did not make a showing of the two required
elements -- intentionality and materiality -- for any
single misstatement or omission contained in the
affidavits. Id. Specifically, it found that the
misstatements and omissions were either the result
of

negligence or innocent mistakes, or had no

bearing on the probable cause determinations. 12 Id.

12 We note that, in support of his motion to suppress, Owens
even labelled as "recklessly false" statements that were actually
true. For example, Owens argued that one of the affidavits
falsely identified him as a suspect, but Owens was in fact a
suspect at the time the affidavit was submitted. The same goes
for some of the omissions on which Owens's motion rested. For
example, he claimed that one of the affidavits omitted that the

71

As to Owens's contention regarding his lack of
consent to the buccal swab during the police
interview,

the

district

court

reviewed

video

recordings of the interview and concluded that
Owens's consent "was voluntarily given, and not the
result of duress or coercion, express or implied." Id.
at *3 n.2 (quoting Schneckloth v. Bustamonte, 412
U.S. 218, 248 (1973)).
After a careful analysis of the record, we agree
with and adopt the district court's factual findings
and legal conclusions regarding Owens's failure to
make the intentionality and materiality showings
that would entitle him to a Franks hearing, and
Owens's consent to the buccal swab during the police
interview. Accordingly, we find no error in the
district court's denial of Owens's motions to suppress
Chabot residence's intruder first attempted to gain entry into
the room where Carol was hiding, when the affidavit
specificallymentioned this fact.

72

the evidence seized pursuant to the search warrants.
See United States v. Arias, 848 F.3d 504, 511 (1st
Cir. 2017) ("In considering a district court's decision
to deny a Franks hearing, we review factual
determinations

for clear error and the probable

cause determination de novo." (citation omitted));
see also United States v. Tzannos, 460 F.3d 128, 136
(1st Cir. 2006) (recognizing that "a defendant must
meet a high bar even to get a Franks hearing").
C.

Sufficiency of Evidence for Owens's
Convictions
In reviewing sufficiency challenges, "[w]e view

'all [the] evidence, credibility determinations, and
reasonable inferences therefrom in the light most
favorable to the verdict[] in order to determine
whether the jury rationally could have found that the
government established each element of the charged
offense beyond a reasonable doubt.'" United States v.

73

Valdés-Ayala, 900 F.3d 20, 30 (1st Cir. 2018)
(quoting United States v. Serunjogi, 767 F.3d 132,
139 (1st Cir. 2014)). Our analysis "is weighted
toward preservation of the jury verdict." RodríguezTorres v. Caribbean Forms Mfr., Inc., 399 F.3d 52, 57
(1st Cir. 2005). "[A]s long as the guilty verdict finds
support in a 'plausible rendition of the record,' it
must stand." United States v. Moran, 312 F.3d 480,
487 (1st Cir. 2002) (citation omitted). Importantly,
as we conduct our review, we place "no premium . . .
upon direct as opposed to circumstantial evidence"
since "both types of proof can adequately ground a
conviction." United States v. Valerio, 48 F.3d 58, 63
(1st Cir. 1995) (quoting United States v. Ortiz, 966
F.2d 707, 711 (1st Cir. 1992)). For Owens's conviction
on Count One, interstate domestic violence, the jury
must have found that the Government proved beyond
reasonable doubt that: (1) Owens was married to

74

Rachel; (2) Owens traveled in interstate commerce -in this case, from New Hampshire to Maine -- with the
intent to "kill [or] injure" Rachel;
(3)

"as a result of such travel," Owens "

commit[ted] or attempt[ed] to commit a crime of
violence" against
(4)

Rachel; and

a "life threatening bodily injury" resulted

from Owens's actions. 13 18 U.S.C. § 2261(a)(1) &
(b)(2). Meanwhile, for Owens's conviction on Count
Two, discharge of a firearm during and in relation
to a crime of violence, the Government had to prove
that "during and in relation to [a] crime of violence,"
namely the crime of interstate domestic violence

13The Government sought to prove the fourth prong, that
Rachel sustained a "life threatening bodily injury," for
purposes of 18 U.S.C. § 2261(b)(2), which provides a penalty
of up to 20 years' imprisonment if defendant's commission of
interstate domestic violence under § 2261(a) results in
"permanent disfigurement or life threatening bodily injury
to the victim." 18 U.S.C.
§ 2261(b)(2).

75

charged in Count One, Owens knowingly "use[d] . .
. a firearm" by discharging it "during and in
relation” to the commission of that crime. 18 U.S.C.
§ 924(c)(1)(A)(iii).
Owens's sufficiency challenge rests on the
Government's alleged failure to prove that Owens
was the person who intruded into the Chabot
residence, and the purported impossibility of Owens
travelling from Londonderry to Saco, invading the
Chabot residence, and returning to Londonderry
within a time frame of approximately four hours and
twenty-four minutes. Owens claims that neither
Carol, Steve, nor Rachel identified him as the
intruder. Furthermore, Owens stresses that Rachel
identified the intruder as a "dark skinned person
with dread locks [sic]," which does not match his
physical description since he is a "white male who
does not have dread locks [sic]." As to the second

76

ground of his sufficiency challenge, Owens claims
that, because he was present in Londonderry at 12:11
a.m. and 4:35 a.m., as reflected by two store's video
surveillance footage, it was impossible for him to
have been present in Saco when the shooting took
place, 2:45-2:47 a.m. He focuses on the amount of
time it would have taken him to make the trip back
from Saco to Londonderry. In particular, Owens
contends that a trip from the Chabot residence in
Saco to Londonderry would take him at least two
hours

and

fifteen

minutes,

while

under

the

Government's theory it took him approximately one
hour and forty-eight minutes. We are not persuaded.
As the Government avers, the jury was
presented

a

vast

amount

of

direct

and

circumstantial evidence identifying Owens as the
Chabot

residence

intruder.

Specifically,

the

Government identifies the following incriminating

77

evidence presented at trial: (1) laboratory testing
confirming that Owens's DNA was found in an area
where the two window panes had been affixed to
each other -- an area that would not have been
exposed until the intruder shattered the outer pane - as well as in the door handle and deadlock used to
access the Chabot residence; (2) boot prints and a
cast of boot impression taken from the scene that
matched the boots found in Owens's car a few hours
after the

incident; (3) testimony regarding

bloodstains found on the armrest of the driver's door
and inside the driver's door of Owens's vehicle a few
hours after the incident; (4) Steve's testimony
identifying the intruder as a person with a similar
physique to Owens's and who, like Owens, wore
glasses; (5) expert testimony revealing Owens's
efforts to manipulate his laptop's clock to make it
seem that he was at his Londonderry home at the

78

time of the incident; and, relatedly, (6) testimony
regarding Owens's attempt to manufacture an alibi
by having his former boss lie to law enforcement
about a Skype call that never took place. This
evidence, in conjunction with the rest of the evidence
presented at trial, allows a reasonable jury to
conclude beyond reasonable doubt that it was
Owens who broke into the Chabot's residence. 14
Owens's reference to Rachel's alleged identification
of the intruder as a "dark skinned person with dread
locks [sic]," which we read as an attempt to highlight
evidence of exculpatory nature, does not help him.
We are not to "weigh the evidence or make

14Although not specifically listed by the Government as
evidence that led the jury to identify Owens as the Chabot
residence's intruder, we note that the .9mm ammunition
stamped "WCC 1987"and dark clothes seized from Owens's
house also strongly support the jury's guilty verdicts. The .9mm
ammunition casings matched the shell casings recovered from
the Chabot residence, while thedark clothes, some of which was
found in Owens's washing machine, matched that worn by the
residence's intruder.

79

credibility judgments" in our sufficiency review, as
"these tasks are solely within the jury's province."
Serunjogi, 767 F.3d at 139 (quoting United States v.
Hernández, 218 F.3d 58, 64 (1st
Cir. 2000)). 15
Finally, as to the alleged impossibility of Owens
making the trip back from Saco to Londonderry in
less than two hours and fifteen minutes, the jury
was presented with ample testimonial evidence,
including Owens's own trial testimony, reflecting
that this ninety-mile trip usually took about one
hour and thirty minutes. Moreover, Carol testified
that Owens frequently bragged about making the
trip in just over an hour. Accordingly, the jury was
presented with sufficient evidence to conclude that

In any event, we note that the record is devoid of any testimony
describing the intruder as such. What Rachel did testify was
that the intruder was wearing a "Jamaican hat" or "floppy [black]
hat.

15

80

Owens's Londonderry-Saco roundtrip would have
lasted three hours or less, which fits easily within
the four hour and twenty-four-minute window
separating the two instances in which he was
recorded at the Londonderry stores.
Based on the foregoing analysis, we conclude
that there was sufficient evidence to support
Owens's convictions.
D.

Reasonableness of Owens's Life Sentence
Owens

challenges

the

procedural

substantive reasonableness of his sentence.

and
He

claims the district court erred procedurally by not
considering some factors outlined in 18 U.S.C. § 3553,
and that it substantively erred in imposing a life
sentence.
Our review is bifurcated. First, we ensure the
district court did not commit any procedural errors,
such as "failing to consider the section 3553(a)

81

factors, selecting a sentence based on clearly
erroneous facts, or failing to adequately explain the
chosen sentence." United States v. GierboliniRivera, 900 F.3d 7, 12 (1st Cir. 2018) (citation
omitted). If a sentence is procedurally sound, we
proceed

to

the

second

step

of

our inquiry:

determining whether the sentence is substantively
reasonable. Id. In reviewing the substantive
reasonableness of a sentence, we "focus[] on the
duration of the sentence in light of the totality of the
circumstances." Id. (citing United States v. Del
Valle- Rodríguez, 761 F.3d 171, 176 (1st Cir. 2014)).
Although a district court is "under a mandate to
consider a myriad of relevant factors," the weight it
decides to afford to those factors is "largely within
the court's informed discretion." United

States v.

Clogston, 662 F.3d 588, 593 (1st Cir. 2011); see also 18
U.S.C. § 3553(a). We will ultimately find a sentence

82

substantively reasonable "so long as the sentencing
court has provided a 'plausible sentencing rationale'
and reached a 'defensible result.'" Gierbolini-Rivera,
900 F.3d at 12 (citing United States v. Martin, 520
F.3d 87, 96 (1st Cir. 2008)). 16
Because Owens failed to preserve his objection
below, we review his procedural challenge based on
the district court's alleged failure to consider §
3553(a) factors for plain error. Id. at 13. Hence, for
Owens's procedural challenge to succeed, he must
show: "(1) that an error occurred, (2) which was clear
or obvious and which not only (3) affected the
defendant's substantial rights, but also (4) seriously

16 In considering a challenge to the substantive reasonableness
of a sentence preserved below, this court applies the abuse of
discretion standard. Gierbolini-Rivera, 900 F.3d at 14. Owens,
however, did not object to his life sentence below. In such cases,
it remains an open question in this Circuit whether the abuse
of discretion standard or the plain error standard applies. Id.
at 15 (citation omitted). Notwithstanding, we need not decide
this issue in the instant case given that Owens's claim fails
under both.

83

impaired the fairness, integrity, or public reputation
of judicial proceedings." Id. at 12 (citations omitted).
Owens's procedural challenge to his sentence fails
on the first prong of the plain error test. The record
reveals

that

the

district

court

took

into

consideration all the mitigating factors Owens
claims it did not, namely, his military accolades,
lack of criminal history, productive work history,
and age.

See 18 U.S.C. § 3553(a) (stating that a

sentencing court "shall consider . . . the history and
characteristics of the defendant"). The district court,
however, weighed these mitigating factors against
the following aggravating factors: the severity of the
crime; Owens's premeditation, given that he planned
to kill Rachel both to avoid the responsibility of
caring for her as she suffered from dementia and to
be able to continue his affair, while avoiding the scorn
that divorcing Rachel would have caused; the

84

attempted murder of a witness and friend, Steve, to
prevent him from identifying Owens as the intruder;
Owens's deceitful character, as revealed through his
participation at trial and during allocution; and,
finally, the need to protect the public, among others.
See id. This balancing of sentencing factors "is
precisely the function that a sentencing court is
expected to perform,"

United States v. Ledée, 772

F.3d 21, 41 (1st Cir. 2014) (citation omitted), and we
find that the district judge did not procedurally err,
plainly or otherwise, while carrying it out in the
present case.
Further,
explained

the

the

district

rationale

court

behind

thoroughly
Owens's

life

sentence. Apart from the factors listed above, it
emphasized Owens's "cold-blooded behavior . . .
[and] obvious lack of conscience," as well as the "long
lasting emotional damage to both Chabots" and the

85

severity of the injuries

inflicted

on

Rachel.

Considering the totality of the circumstances of
Owens's crime, we find that the district court's life
sentence is a defensible result. See GierboliniRivera, 900 F.3d at 12. Accordingly, we conclude
that the district court did not substantively err.
E.

Motion to Dismiss the Indictment on
Double Jeopardy Grounds
Finally, Owens claims that the district court

erred in denying his motion to dismiss the
indictment on double jeopardy grounds. The Double
Jeopardy Clause "provides that no person may be
tried more than once 'for the same offence.'" Currier
v. Virginia, 138 S. Ct. 2144, 2149 (2018). It protects
"an individual against (1) a second prosecution for
the same offense, following an acquittal; (2) a second
prosecution for the same offense, following a
conviction; and (3) multiple punishments for the

86

same offense." United States v. Stoller, 78 F.3d 710,
714 (1st Cir. 1996) (citation omitted). Owens,
however, does not establish that his
jeopardy

challenge

is

premised

on

double
a

prior

criminal conviction, acquittal, or punishment for the
same offenses for which he was convicted and
sentenced in this case. 17 We thus find no error in the
district court's denial of his motion to dismiss the
indictment on double jeopardy grounds.
II.

CONCLUSION
For the reasons explained above, each

of Owens's claims is unavailing. We therefore affirm
the district court's denial of his pretrial motions, his
convictions, and sentence.
Affirmed.

He does not even allege that he was subject to any prior criminal
prosecution for offenses resulting from the events that unfolded
at the Chabot residence.

17

87

Appendix B
UNITED STATES DISTRICT COURT
DISTRICT OF MAINE
UNITED STATES OF AMERICA,
v.
GREGORY OWENS,
Defendant.
Docket No. 2:15-cr-55-NT
ORDER ON DEFENDANT’S MOTIONS TO
SUPPRESS AND DISMISS
Defendant Gregory Owens is charged with
Interstate Domestic Violence in violation of 18 U.S.C.
§ 2261(a)(1), (b)(2) and Discharge of a Firearm
During and in Relation to a Crime of Violence in
violation of 18 U.S.C. 924(c)(1)(A)(iii). This matter
comes before the Court on the Defendant’s motion to
dismiss (ECF No. 40) and two motions to suppress

88

(ECF Nos. 41 & 43). 1 I have considered the
testimony, evidence, and arguments presented at the
hearing on September 9, 2015, as well as both
parties’ supplemental briefs. For the reasons stated
below, the Defendant’s motions are DENIED.

FINDINGS OF FACT
The charges against the Defendant arise out of
a shooting that occurred in the early hours of
December 18, 2014 at a home on Hillview Avenue in
Saco, Maine. I glean these facts from the testimony
of Officer Randy Dyer, Sergeant Marc Beaudoin, and
Detective Frederick Williams and from the exhibits
offered by the parties.
On the night of the shooting Steven and Carol
Chabot, the owners of the home, were hosting their
The Defendant initially filed three motions to suppress but
later withdrew his motion to suppress DNA test results (ECF
No. 42). See Def.’s Suppl. Brief 6 (ECF No. 61).

1

89

longtime friend Rachel Owens, the Defendant’s wife.
At 2:47 a.m., Steven Chabot called 911 to report a
shooting in his home. Def.’s Ex. B ¶ 3 (ECF No. 54-1).
When officers arrived, they learned that both Steven
Chabot and Rachel Owens had been shot. Def.’s Ex.
B ¶ 3. Carol Chabot was found unharmed. Def.’s Ex.
B ¶ 3.
During the ensuing investigation at the
Chabot residence, Rachel Owens was unresponsive,
but Steven Chabot was able to speak. He told
investigators that he had heard a noise coming from
downstairs while he was in bed with his wife in their
second floor bedroom. Def.’s Ex. B ¶ 5. When they
went into the hallway to investigate, Steven Chabot
saw an individual walking up the stairs holding a
gun. Def.’s Ex. B ¶ 5. Steven Chabot described the
subject as 5’ 9’’ tall with a medium build and wearing

90

all black clothing, including a black ski mask. Def.’s
Ex. B ¶ 5.
Carol Chabot did not see the subject but saw
the look of fear on her husband’s face when he saw
the individual ascending the stairs. She ran to a
nearby bedroom to hide. The intruder initially
tried—but failed—to gain entry into the bedroom
where Carol Chabot had barricaded herself.
Thereafter, Carol Chabot heard Rachel Owens
screaming, followed by gunshots and moaning. Def.’s
Ex. B ¶ 6. After shooting Rachel Owens three times,
the intruder attempted to enter the locked bedroom
where Steven Chabot was hiding. Def.’s Ex. B ¶ 5.
The intruder fired several shots through the bedroom
door, striking Steven Chabot in the torso three times.
Def.’s Ex. B ¶¶ 3-5.
The intruder then fled, and Steven Chabot
called the police. Def.’s Ex. B ¶ 5. The police

91

discovered several 9mm bullet castings, large spots
of what appeared to be blood on a carpet, and signs of
forced entry through a glass door that had been
broken in the back of the Chabot’s garage. Def.’s Ex.
B ¶ 4. The police also discovered and took casts of
boot prints at the scene. Def.’s Ex. A ¶ 10 (ECF No.
54).
At approximately 4:20 a.m., Detective Fred
Williams of the Saco Police Department contacted
the Londonderry Police Department for assistance in
locating the Defendant. Officer Randy Dyer and
Officer Keith Lee of the Londonderry Police
Department were dispatched to the Defendant’s
residence to check if the Defendant’s motor vehicles
were present. They were specifically instructed not to
make contact with the Defendant. Officer Lee, who
had a personal relationship with the Defendant, was
aware that the Defendant possessed firearms, and as

92

a result, the officers approached the home cautiously.
The Defendant’s split-level house is at the end of a
dead-end street lined with several other houses.
There are no streetlights on the road. Officers Dyer
and Lee arrived at 5:24 a.m., parked at the far end of
the street, and walked toward the Defendant’s home.
Photographs of the Defendant’s house and yard,
admitted as Defendant’s Exhibits 3 and 4, show that
the house sits back about forty feet from the street.
As one faces the house from the street, on the ground
floor of the left side of the house is a garage. A
driveway runs from the garage straight to the street.
A paved walk connects the driveway to the
Defendant’s front steps. At the foot of the driveway
there is a mulched bed containing a mailbox and
several bushes. To the left of the driveway is a side
yard with a row of evergreen trees that sit back
approximately 10-20 feet from the street and run

93

parallel to the street. In front of the evergreen trees
is a lawn area. There are no fences or signs posted on
the Defendant’s property.
As Officers Dyer and Lee approached they
noticed lights on in the Defendant’s house. At this
point, a New Hampshire state trooper arrived with
his cruiser’s blue lights on. The officers stopped the
trooper and asked him to turn off his lights. Around
this time, the lights in the Defendant’s home went
off.
The police observed a vehicle parked on the
upper part of the driveway with its nose facing the
garage. At this point, Officer Dyer crossed the lawn
in front of the evergreen trees, walked toward the
vehicle, touched the hood, and determined that the
engine was warm. He then retreated back to the
evergreen trees, joined Officer Lee and the state
trooper, and they all returned to their vehicles to sit

94

watch. Between around 6:00 and 6:30 a.m., the
Defendant left his home and went to a nearby Circle
K gas station. The officers followed and made contact
with the Defendant at the gas station where they
informed him that his wife had been shot. The
officers noticed what appeared to be blood on the
Defendant and along the driver’s side armrest and
steering wheel of the Defendant’s vehicle. Def.’s Ex.
B ¶ 8.
Around this time, Sergeant Marc Beaudoin of
the New Hampshire State Police arrived at the
Circle K gas station. By this time, Sergeant
Beaudoin had learned that two people had been
seriously injured in a shooting in Saco and that there
was a suspect in Londonderry. Sergeant Beaudoin
understood that the authorities in Maine did not
know if the victims were going to live or die. The
Defendant agreed to go to the Londonderry Police

95

Department for questioning. Sergeant Beaudoin,
along with Sergeant Nicholas Pinardi of the
Londonderry Police Department, conducted a
recorded Mirandized interview. When Sergeant
Beaudoin told the Defendant that his wife had been
shot, the Defendant asked about his wife’s status.
When told his wife was alive but in surgery, the
Defendant briefly lost his composure and then asked
about her prognosis. The Defendant then asked what
had happened, and Sergeant Beaudoin told the
Defendant that the police were investigating. Def.’s
Exhibit 1A, 2:29-3:08. The Defendant told Sergeant
Beaudoin that Carol Chabot had picked Rachel
Owens up on Monday, December 15th to take her to
Maine for a visit. His wife had been staying with the
Chabot’s—who are close family friends—for a few
days. When asked about his whereabouts over the
last day, the Defendant stated that:

96

• He woke up early on December 17th when the
automatic light in his living room went on at 5:30
a.m. Def.’s Ex. 1A, 7:48-7:54.
• He worked throughout the day in his home office on
a proposal for the Ukrainian government. Def.’s Ex.
1A, 8:00-8:20.
• He left to grab a coffee from the gas station at
around 3:30 or 4:00 in the
afternoon. Def.’s Ex. 1A, 8:35-8:44.
• He spoke with his wife on the phone at around 9:15
p.m. Def.’s Ex. 1A, 12:04-12:10.

• He continued to work on the project and then left
his house between 12:30 a.m. and 12:45 a.m. to grab
a diet soda and a pack of cigarettes from a nearby
gas station. Def.’s Ex. 1A, 8:56-9:04.
• When he returned home, he worked for a few
minutes. He then tried to go to sleep but got up to fix

97

something in his project at about 2:30 or 2:45 a.m.
Def.’s Ex. 1A, 10:30-10:44.
• Later that morning, he woke up early to check his
email for work and then drove down to get a cup of
coffee. Def.’s Ex. 1A, 9:14-9:36.
Later on in the interview, the Defendant gave a
somewhat different account of what happened in the
evening of December 17th into the early morning of
December 18th.

• He went to bed around 11:45 p.m. or midnight but
woke up around 2:30 a.m. to do some work on his
computer. Def.’s Ex. 1A, 39:16-39:50.
• He went to Dunkin Donuts early in the morning on
December 18th between 4:15 a.m. and 4:45 a.m. to
get a coffee and donuts. Def.’s Ex. 1A, 40:06-41:16.

98

Sergeant Beaudoin left the interview around this
point and Detective Jeff Cook of the Saco Police
Department eventually took his place. The
Defendant told Detective Cook about his midnight
trip to the Circle K gas station and his early morning
trip to Dunkin Donuts. Def.’s Ex. 1A, 1:24:56-1:27:18.
During the interview, Sergeant Beaudoin asked
whether the Defendant owned any firearms, and the
Defendant said he had an entire arsenal at his
house. Def.’s Ex. 1A, 18:10-18:14. The Defendant
explained that he had a rack of pistols because he
trains with departments that work with 9mm
handguns, GLOCK .40 handguns, and the new M&P
.40. Def.’s Ex. 1A, 18:18-18:32. Sergeant Beaudoin
then specifically asked the Defendant whether he
owned any 9mm handguns, and the Defendant said
that he owned two. Def.’s Ex. 1A, 19:40-19:44.

99

Sergeant Beaudoin was aware that 9mm casings
were recovered at the scene of the crime.
The officers also inquired about the amount of
time it normally takes the Defendant to travel to
Maine. The Defendant said that it normally takes
him 2 hours and 10 minutes to drive from his home
in Londonderry to Saco and it would take him longer
if the weather was poor. Def.’s Ex. 1A, 25:28 – 25:46.
However, the Defendant had told the officers earlier
in the interview that it takes him about 90 minutes
to travel to his wife’s parents’ home on Portland
Road in Saco. Def.’s Ex. 1A, 6:10-6:26. At one point
during the interview, Sergeant Beaudoin pointed out
that the Defendant had blood on his hand. Def.’s Ex.
1B, 10:58-11:00. The Defendant said he had cut his
hand on a glass and that the broken glass was in the
trash at his home. Def.’s Ex. 1B, 11:00-11:06. The
officers later obtained the Defendant’s consent to

100

swab his hand for DNA testing and did in fact take a
sample. 2 Def.’s Ex. 1B, 41:46-42:22.
After the interview ended, Sergeant Beaudoin
and Detective Cook drove to the State Police
Barracks in Bedford, New Hampshire to photograph
the Defendant’s vehicle. Def.’s Ex. A ¶ 15. While
taking pictures, Detective Cook observed blood on
the steering wheel and driver’s side door near the
handle and noticed a pair of black boots in the back
seat. Def.’s Ex. A ¶ 15. Later that day, the officers

In his motion to suppress search warrants, the Defendant
argued that his consent to provide a DNA sample was
involuntary because the Defendant “was in custody” and not
aware that he was the target of an investigation. See Def.’s
Mot. to Suppress Search Warrants 10. Although it is the
Government’s burden to prove that consent was voluntary,
United States v. Romain, 393 F.3d 63, 69 (1st Cir. 2004), this
issue was not addressed at the suppression hearing. However, a
review of the video recordings establishes that the Defendant’s
consent “was voluntarily given, and not the result of duress or
coercion, express or implied.” Schneckloth v. Bustamonte, 412
U.S. 218, 248 (1973). In the video, Sergeant Beaudoin
straightforwardly asked about obtaining a swab of the
Defendant’s mouth for DNA and a swab of his hand. The
Defendant then orally provides consent for both searches. See
Def.’s Ex. 1B 10:56-11:08.

2

101

reviewed the surveillance videos from the Circle K
gas station and Dunkin Donuts. The Defendant was
at the Circle K gas station at 12:11 a.m. and Dunkin
Donuts at approximately 4:50 a.m. Def.’s Ex. A ¶ 16;
Def.’s Ex. C ¶ 15 (ECF No. 54-2). In both surveillance
videos, the Defendant was wearing dark clothing and
dark boots similar to those in the Defendant’s
vehicle. Def.’s Ex. A ¶ 16. The Defendant was
wearing different clothing when he was interviewed
by the police. Def.’s Ex. A ¶ 16. Based on this,
Sergeant Beaudoin suspected that the Defendant
changed his clothing at his home after getting home
from Dunkin Donuts. Def.’s Ex. A ¶ 16.
Detective Williams had responded to the scene
of the shooting in the early morning hours of
December 18th and had transported Carol Chabot
back to the Saco Police Department. Thereafter,
Detective Williams received periodic updates from

102

his supervisor, Detective Sergeant Huntress, who
was directing the investigation in Maine and
receiving information from a number of different
officers working on the case in both Maine and New
Hampshire.
Detective Williams drafted an affidavit
outlining the investigation that was taking place in
Maine. Detective Williams’s affidavit includes a
description of the shooter provided by Steven Chabot.
This description was relayed to Detective Williams
by Detective Granata who was with the shooting
victims at the hospital. The affidavit does not include
a description from Carol Chabot because she never
saw the intruder. Detective Williams drafted his
initial affidavit before Rachel Owens could be
interviewed by Detective Granata.33 Detective
Detective Williams testified that he did not have information
from Detective Granata’s interview of Rachel Owens at the time
he drafted any of his affidavits in support of search warrants.

3

103

Williams also did not include in his affidavit the fact
that blood was not found at the point of entry into
the Chabot’s home and that the intruder was
wearing gloves. Detective Williams testified that he
did not include this information because he was not
aware of it until months later. Detective Williams’s
affidavit included information regarding the
surveillance videos and travel times between Maine
and New Hampshire. In paragraph 11 of his
affidavit, Detective Williams stated that the
Defendant was at Dunkin Donuts at 4:15
a.m. Def.’s Ex. B ¶ 11. Detective Williams testified
that he later learned that the Defendant was at
Dunkin Donuts at 4:50, and he attributes the error to
a miscommunication over the telephone. In
paragraph 12, Detective Williams wrote that the
Circle K gas station was 96 minutes away from the
Chabot’s home on Hillview Avenue in Saco and that

104

the Dunkin Donuts was 88 minutes away from the
Chabot’s house. Def.’s Ex. B ¶ 12. Detective Williams
used Google Maps to make these calculations.
Detective Williams was aware that the Defendant
had said it normally takes him 2 hours and 10
minutes to get from his home in Londonderry to
Saco. At some point after he drafted this affidavit,
Detective Williams learned that the Defendant’s
Transpass was not used on the night of the shooting.
Detective Williams finished his affidavit early in the
morning of December 18th and emailed it to
Sergeant Beaudoin. Sergeant Beaudoin attached
Detective Williams’s affidavit to his own search
warrant affidavit as an appendix. At the time
Sergeant Beaudoin drafted his affidavit, he
knew that both shooting victims were still alive but
was not sure whether they were going to make it.
Sergeant Beaudoin was unaware that blood was not

105

found at the point of entry into the Chabot’s home.
He also did not know about any reports describing
the intruder as wearing gloves. He did, however,
indicate in his affidavit that entry into the Chabot’s
house had been made by breaking a window and that
the Defendant had a cut on his hand at the time of
the interview. Sergeant Beaudoin finished drafting
and submitted his application for a warrant to search
the Defendant’s residence and vehicle around 10:15
p.m. on December 18, 2014. He received a fax of the
warrant signed by a New Hampshire judge at 10:43
p.m. on December 18th. On December 19, 2014, the
New Hampshire State Police conducted a search of
the Defendant’s residence and seized the Defendant’s
vehicle so that it could be transported to Maine to be
searched.
On December 18, 2014, a Maine District Court
Judge signed an anticipatory search warrant for the

106

Defendant’s vehicle, which was then still located in
New Hampshire. See Def.’s Ex. B. This warrant was
supported by Detective Williams’s December 18,
2014 affidavit, and it authorized the search of the
vehicle in Maine once the Maine authorities were
allowed to take possession of the vehicle. Def.’s Ex. B.
The Defendant’s vehicle was searched on December
22, 2014 at the Maine State Police Crime Laboratory.
On December 23, 2014, a Maine District Court Judge
signed a search warrant for 16 electronic items that
had been seized from the Defendant’s home. Def.’s
Ex. C.
This warrant was supported by Detective
Williams’s December 18th affidavit, which added the
fact that the Defendant’s home in New Hampshire
had been searched on December 19th and clarified
the mistake in earlier affidavits concerning the time

107

the Defendant was at Dunkin Donuts on December
18th. Def.’s Ex. C ¶ 15.
On January 16, 2015, a Maine District Court
Judge signed a search warrant for the Defendant’s
external hard drive and black Swiss Army carry-on
laptop travel bag. Def.’s Ex. D (ECF No. 54-3). This
warrant was supported by the affidavit prepared by
Detective Williams that had been further updated to
note that the Maine State Police Crime Laboratory
had matched the Defendant’s DNA to DNA found at
the scene of the shooting, that the clock on the
Defendant’s computer had been tampered with, and
that the Defendant had been involved in an extramarital affair since 2008. Def.’s Ex. D. ¶¶ 17-18, 22.
The affidavit also stated that 15 rounds of the same
exact 27 year-old 9mm ammunition was found in the
Defendant’s home and that the black boots seized
from the backseat of the Defendant’s car had the

108

same exact size and tread of the foot impressions
taken from the scene of the crime. Def.’s
Ex. D. ¶¶ 16-17.
Finally, on January 20, 2015, Magistrate
Judge John Rich III issued a search warrant for a
buccal swap of the Defendant’s cheek. Def.’s Ex. E
(ECF No. 54-4). This warrant was based on an
affidavit prepared by Special Agent Pamela Flick.

DISCUSSION

The Defendant argues that: (1) his indictment
should be dismissed on double jeopardy grounds; (2)
Officer Dyer’s touch of the Defendant’s vehicle in his
driveway was an unconstitutional search; (3) each
search warrant lacks probable cause on its face; and
(4) he is entitled to a Franks hearing to contest each
search warrant issued in this matter because of

109

alleged false statements and material omissions
contained in affidavits supporting the warrants. I
address each argument in turn
.
I. Motion to Dismiss the Indictment
“[P]rosecutions undertaken by separate
sovereign governments, no matter how similar they
may be in character, do not raise the specter of
double jeopardy as that constitutional doctrine is
commonly understood.” United States v. Guzman, 85
F.3d 823, 826 (1st Cir. 1996). “When a defendant in a
single act violates the peace and dignity of two
sovereigns by breaking the laws of each, he has
committed two distinct offenses.” Heath v. Alabama,
474 U.S. 82, 88 (1985) (internal quotation marks
omitted). This doctrine is not an exception to double
jeopardy, but rather “a manifestation of the maxim
that where a defendant violates the laws of two

110

sovereigns, he commits separate offenses.” United
States v. Angleton, 314 F.3d 767, 771 (5th Cir. 2002).
There is a very limited exception to the dual
sovereign rule created by Bartkus v. Illinois, 359 U.S.
121, 124 (1959). The Bartkus exception applies only
where “one sovereign so thoroughly dominates or
manipulates the prosecutorial machinery of another
that the latter retains little or no volition in its own
proceedings.” Guzman, 85 F.3d at 827. To fall within
this exception, a defendant bears an entry-level
burden of producing “some evidence” that “one
sovereign was a pawn of the other, with the result
that the notion of two supposedly independent
prosecutions is merely a sham.” Id. The fact that two
sovereigns cooperated in conducting an investigation
is insufficient to invoke this limited exception. Id. at
828 (“Cooperative law enforcement efforts between
independent sovereigns are commendable, and,

111

without more, such efforts will not furnish a legally
adequate basis for invoking the Bartkus exception to
the dual sovereign rule.”). The Defendant argues that
his indictment must be dismissed because he is
facing charges stemming from the same incident in
state court.4 4 He contends that this case falls under
the Bartkus exception because “the investigation was
conducted by both state and federal authorities
working together and prosecutorial decisions were
made at approximately the same time.” Def.’s Mot. to
Dismiss 4 (ECF No. 40). The Defendant notes that
the discovery in the state and federal cases is
identical and that “[c]ounsel has a good faith basis to
believe that the prosecutorial entities are at a
minimum working together on this matter.” Def.’s

The State is charging multiple counts of aggravated attempted
murder, attempted murder, elevated aggravated assault,
aggravated assault, burglary, and criminal mischief.

4

112

Reply 2 (ECF No. 50). Even assuming for the
purposes of argument that jeopardy has attached in
the state court matter, the Defendant has presented
insufficient evidence to meet the entry-level showing
required by Bartkus. Accordingly, his motion to
dismiss on this basis fails.55

II. Officer Dyer’s Touching of the Defendant’s
Vehicle

The Defendant argues that Officer Dyer
performed an unconstitutional search when he
entered the Defendant’s driveway and touched the

The Defendant also urges the Court to dismiss his indictment
because the Government’s interest in the matter has been
extinguished by the more serious charges brought in state
court. This argument fails as well. See Heath v. Alabama, 474
U.S. 82, 93 (1985) (rejecting an interest-based approach and
noting that “[a] [sovereign’s] interest in vindicating its
sovereign authority through enforcement of its laws by
definition can never be satisfied by another [sovereign’s]
enforcement of its own laws.”
5

113

Defendant’s vehicle to determine whether it had been
driven recently. Def.’s Mot. to Suppress Search of
Vehicle 3-4 (ECF No. 43). The Government argues
that a search did not occur because the Defendant’s
driveway was not within the curtilage of his home.6 6
Gov.’s Suppl. Brief 3-5 (ECF No. 62).

A. The Curtilage Question

At the Fourth Amendment’s “‘very core’ stands
‘the right of [an individual] to retreat into his own
home and there be free from unreasonable
governmental intrusion.’ ” Florida v. Jardines, 133 S.
Ct. 1409, 1414 (2013) (quoting Silverman v. United
States, 365 U.S. 505, 511 (1961)). Under the Fourth
Amendment, the curtilage—or the area “immediately
Alternatively, the Government contends that the search was
justified by exigent circumstances. I do not reach this
argument.

6

114

surrounding and associated with the home”—is
considered part of the home itself. Id. After all, the
paramount protection provided to the home under
the Fourth Amendment would be essentially hollow
if the government “could stand in a home’s porch or
side garden and trawl for evidence with impunity.”
Id.
Courts generally utilize four factors, known as
the Dunn factors, in determining whether a location
falls within the home’s curtilage. These factors are:
[1] [T]he proximity of the area claimed to be curtilage
to the home, [2] whether the area is included within
an enclosure surrounding the home, [3] the nature of
the uses to which the area is put, and [4] the steps
taken by the resident to protect the area from
observation by people passing by. United States v.
Brown, 510 F.3d 57, 65 (1st Cir. 2007) (quoting United
States v. Diehl, 276 F.3d 32, 38 (1st Cir. 2002)).

115

Although “these factors are useful analytical tools,
“the guiding question is whether the location is “so
intimately tied to the home itself that it should be
placed under the home’s ‘umbrella’ of Fourth
Amendment protection.” United States v. Dunn, 480
U.S. 294, 301 (1987).
Applying the Dunn factors here, the
Defendant’s vehicle was parked so that the hood of
the vehicle was closest to the Defendant’s garage,
and Officer Dyer was near the garage when he
touched the hood of the vehicle. The driveway is not
enclosed in any way. Although the Defendant’s home
is partially surrounded by trees on the sides and
back, nothing surrounds the driveway, which is
completely open to the public. The Defendant used
the driveway, at least on the night in question, to
park his vehicle. It also serves as an access point to
the garage and connects the street to the paved walk

116

to the front door. The open nature of the driveway
makes it unlikely that the Defendant would use the
driveway for private activities. Finally, the
Defendant took no steps to protect his driveway from
observation. There were no fences, dogs, or signs
warning visitors away. The Defendant’s entire
driveway is easily observable to anyone passing by in
the neighborhood. Although the Defendant lives at
the end of a quiet dead-end street, the street is public
and the driveway was not blocked or protected in
anyway.
The First Circuit has remarked that “[i]f the
relevant part of the driveway is freely exposed to
public view, it does not fall within the curtilage . . .
even [if] the relevant part of the driveway is
somewhat removed from a public road or street, and
its viewing by passersby is only occasional.” Brown,
510 F.3d at 65-66 (driveway adjacent to the garage

117

was not within the curtilage); see also United States
v. Roccio, 981 F.2d 587, 591 (1st Cir.1992) (no
expectation of privacy in a driveway exposed to
public); Pina v. Morris, No. 09-11800-RWZ, 2013 WL
1283385, at *6 (D. Mass. Mar. 28, 2013) (driveway
not considered within curtilage); United States v.
Sayer, No. 2:11-cr-113-DBH, 2012 WL 2180577, at *2
(D. Me. June 13, 2012) (same); United States v.
Sparks, 750 F. Supp. 2d 384, 389 (D. Mass. 2010),
aff'd, 711 F.3d 58 (1st Cir. 2013) (parking area near
defendant’s apartment building not within curtilage).
But see Diehl, 276 F.3d at 35, 40-41 (driveway was
within the curtilage when the relevant part of the
driveway was 500 feet from a discontinued town road
in a remote rural area, the residents had posted “no
trespassing signs” to discourage members of the
public from entering, and the driveway was enclosed
by a forest.”). Only the proximity factor of the Dunn

118

framework favors the Defendant’s position that the
driveway where the car was parked was within the
home’s curtilage.
However, proximity to the home, standing
alone “is not dispositive.” Brown, 510 F.3d at 65
(citing United States v. French, 291 F.3d 945, 952 (7th
Cir. 2002)); see also United States v. Bausby, 720 F.3d
652, 656-57 (8th Cir. 2013) (holding that enclosed
yard within close proximity to the home was not
within curtilage). I find that the Defendant’s
driveway was not intimately tied to the home itself.77

I also note that the officers did not intrude upon the curtilage
when they gathered on the side of the Defendant’s property at
the tree line near the public road. Defendant’s photographic
evidence plainly demonstrates that this location was farther
from his home, devoid of any enclosures or signs, and
completely open and accessible from the public road and the
neighboring property. See Def.’s Ex. 4 & 5. Thus, any argument
that this portion of the Defendant’s property is within the
curtilage fails. For the same reasons, Officer Dyer’s line of
approach, which cut across the Defendant’s lawn, was also not
an intrusion into the curtilage. See Def.’s Ex. 3; see also United
States v. Bausby, 720 F.3d 652, 656-57 (8th Cir. 2013) (holding
that enclosed yard within close proximity to the home was not
within curtilage).
7

119

Because the driveway was not within the curtilage, it
does not fall “under the home’s ‘umbrella’ of Fourth
Amendment protection.” Dunn, 480 U.S. at 301.

B. The Property-Rights Baseline of the Fourth
Amendment

The Defendant contends that the Dunn factors,
and the decisions interpreting them, need to be read
in light of the reemergence of the trespass analysis of
the Fourth Amendment articulated in United States
v. Jones, 132 S. Ct. 945 (2012) and Florida v. Jardines,
133 S. Ct. 1409 (2013). Jardines and Jones establish
that a search occurs for Fourth Amendment purposes
either when: (1) the government physically intrudes
on a constitutionally protected area for the purposes
of obtaining information, Jones, 132 S. Ct. at 949, or
(2) the government violates a person’s reasonable

120

expectation of privacy. Katz v. United States, 389 U.S.
347, 360 (1967) (Harlan, J., concurring).

1. Florida v. Jardines

In Jardines, the Court held that “[t]he
government's use of trained police dogs to investigate
the home and its immediate surroundings is a
‘search’ within the meaning of the Fourth
Amendment.” 133 S. Ct. at 1417-18. Significantly,
the Court found that the search at issue occurred in
the home’s curtilage because the “front porch is the
classic exemplar of an area adjacent to the home and
to which the activity of home life extends.” Id. at 1415
(internal quotation marks omitted).
Justice Scalia’s opinion in Jardines did not
discuss the Dunn factors, but there is no suggestion
that Dunn has been overruled. Post-Jardines, other

121

courts have applied these decisions in tandem. See,
e.g., Harris v. O'Hare, 770 F.3d 224, 240-42 (2d Cir.
2014); Bausby, 720 F.3d at 656-57; United States v.
Apicelli, No. 14-cr-012-01-JD, 2015 WL 2064290, at
*5 (D.N.H. May 4, 2015); United States v. Bain, No.
14-cr-10115-IT, 2015 WL 666958, at **6-8 (D. Mass.
Feb. 17, 2015).
While the Defendant argues that Jardines
applies to the facts of this case, I disagree. Unlike the
front porch at issue in Jardines, the Defendant’s
driveway was not within the home’s curtilage. See
supra sources cited in Part II. A. 8

Jardines is also arguably distinguishable on the grounds that
the scent of marijuana detected by the drug-sniffing dog
emanated from inside the home itself where citizens enjoy
heightened privacy protection. 133 S. Ct. at 1413; see also Kyllo
v. United States, 533 U.S. 27, 40 (2001) (use of thermalimaging
device to observe heatwaves emitted from home
unconstitutional); Payton v. New York, 445 U.S. 573, 590 (1980)
(“[T]he Fourth Amendment has drawn a firm line at the
entrance to the house.”). The conduct at issue here did not lead
to the discovery of any details originating from within the
Defendant’s home. Instead, Officer Dyer only gleaned
information pertaining to the Defendant’s vehicle. It is well8

122

2. United States v. Jones

The Defendant also argues that Officer Dyer’s
conduct constituted a search under the framework
set forth in Jones because “the touching of the
vehicle constitute[d] a trespass.” Def.’s Mot. to
Suppress Search of Vehicle 5. In Jones, the Court
held that a search occurred when law enforcement
physically intruded on the defendant’s constitutional
“effect”—his vehicle—by attaching a GPS device to it.
132 S. Ct. at 949 (“The Government physically
occupied private property for the purpose of
obtaining information. We have no doubt that such a
physical intrusion would have been considered a
‘search’ within the meaning of the Fourth

established that citizens have a significantly reduced
expectation of privacy in their vehicles. See California v. Carney,
471 U.S. 386, 393 (1985).

123

Amendment when it was adopted.”). Thus, under
Jones, a trespass combined with “an attempt . . . to
obtain information” constitutes a search. Jones, 132
S. Ct. at 951 n.5.
The Defendant has not cited to any law
extending Jones to the limited type of search at issue
here. The conduct at issue in Jones—mounting a
GPS device to the undercarriage of the defendant’s
car for 28 days—is far more physically intrusive than
Officer Dyer’s momentary contact with the exterior of
the hood of the Defendant’s vehicle. Indeed, it is a
stretch to describe this type of momentary contact
with the outside of an inanimate object as an
“intrusion” upon the Defendant’s effect. I do not
believe that Jones extends this far. 9

My conclusion is consistent with other pre-Katz trespass-based
Supreme Court decisions. Compare Silverman v. United States,
365 U.S. 505, 506-09 (1961) (unconstitutional search occurred
when the police inserted a microphone “into a crevice extending
several inches into the party wall, until the [microphone] hit
9

124

As a result, even considering the police
conduct here in light of the Supreme Court’s recent
decisions in Jardines and Jones, I find that there was
no search when Officer Dyer walked up to the
Defendant’s vehicle and placed his hand on the
exterior of its hood to determine whether it had been
driven recently.

III. Search Warrants
The Defendant next contends that each search
warrant lacked probable cause on its face and that he

something solid that acted as a very good sounding board,”
because “eavesdropping was accomplished by means of an
unauthorized physical penetration into the premises occupied
by the [defendants]”), with Goldman v. United States, 316 U.S.
129, 135-36 (1942) (placing a detectaphone against an office
wall in order to listen to conversations taking place in the office
next door did not violate the Amendment), overruled in part by
Katz v. United States, 389 U.S. 347 (1967); see also New York v.
Class, 475 U.S. 106, 114-15 (1986) (momentary reaching into the
interior of a vehicle did constitute a search); Clinton v. Virginia,
377 U.S. 158, 158 (1964) (Clark, J., concurring)(per curiam)
(insertion of an electronic device into a wall with a tack
constituted a physical intrusion into the home).

125

is entitled to a Franks hearing because of false
statements and material omissions contained within
the affidavits supporting the warrants. Def.’s Mot. to
Suppress Search Warrants 4, 10 (ECF No. 41). The
Government argues that each search warrant is
supported by probable cause and that the Defendant
has failed to make the required preliminary showing
for a Franks hearing. Gov.’s Consolidated Obj. to
Def.’s Mot. to Suppress 7 (ECF No. 47).

A. Facial Sufficiency of the Warrants

“A search warrant affidavit must set forth
particular facts and circumstances underlying the
existence of probable cause to search.” United States
v. Graf, 784 F.3d 1, 7 (1st Cir. 2015) (citation and
internal quotation marks omitted). A warrant
application “must demonstrate probable cause to

126

believe that (1) a crime has been committed—the
‘commission’ element, and (2) enumerated evidence
of the offense will be found at the place to be
searched—the so-called ‘nexus’ element.” United
States v. Feliz, 182 F.3d 82, 86 (1st Cir. 1999). In
establishing the nexus element, the magistrate must
consider the totality of the circumstances to
determine whether “there is a fair probability that
contraband or evidence of a crime will be found in a
particular place.” Illinois v. Gates, 462 U.S.
213, 238 (1983). “[T]he facts presented to the
magistrate need only warrant a man of reasonable
caution to believe that evidence of a crime will be
found.” Feliz, 182 F.3d at 86 (citation and internal
quotation marks omitted). “There is no requirement
that the belief be shown to be necessarily correct or
more likely true than false.” Id. at 87.

127

Because a magistrate’s determination of
probable cause “must be accorded great deference by
reviewing courts,” the duty of “a reviewing court is
simply to ensure that the [magistrate] had a
substantial basis for concluding that probable cause
existed.” United States v. McMullin, 568 F.3d 1, 6 (1st
Cir. 2009) (citations and internal quotation marks
omitted).
The Defendant first challenges the December
18, 2014 search warrant for the Defendant’s home
and vehicle issued in New Hampshire. This warrant
was drafted on December 18, 2014 and contains both
Sergeant Beaudoin and Detective Williams’s
affidavits. Among other things, Sergeant Beaudoin’s
affidavit established that: (1) law enforcement
officers who arrived at the Defendant’s home early in
the morning on December 18, 2014 saw that the
lights in the Defendant’s home were going on and off;

128

(2) the hood of the car parked in the Defendant’s
driveway was warm to the touch; (3) the Defendant
changed his story regarding his whereabouts
throughout the course of his interview with law
enforcement; (4) the Defendant had blood on his
hand when he was interviewed by the police and
Sergeant Beaudoin knew that the intruder had
gained entry into the Chabot’s home by breaking a
window; (5) the Defendant stated he had 9mm
handguns at his home; (6) Detective Cook observed
blood and black boots inside the Defendant’s car; (7)
the surveillance video from the Circle K gas station
showed the Defendant wearing dark clothing and
dark boots before the shooting occurred; (8) the
surveillance video from Dunkin Donuts on Route 102
at Mohawk Drive showed the Defendant arrive at
4:50 a.m. wearing dark colored clothing and dark

129

boots; (9) the boots in the Defendant’s vehicle
appeared similar to the boots the
Defendant was wearing in both surveillance videos,
and (10) the Defendant was wearing a different
jacket and boots when the police interviewed him
later that morning. Def.’s Ex. A.
Detective Williams’s affidavit repeated much
of the information contained in Sergeant Beaudoin’s
affidavit, but it also added the following information:
(1) officers found 9mm bullet casings at the scene of
the crime; (2) forced entry into the Chabot’s home
was made through a rear garage door and window;
(3) Steven Chabot described the shooter as wearing
all black clothing and a black ski mask; (4) Carol
Chabot described the Defendant as having killed
people in the army and said that he owned several
weapons that he would show off after consuming
alcohol; and (5) based on Google Maps, the

130

Defendant would have been able to make it from the
Circle K gas station in New Hampshire to the
Chabot’s house in Saco, Maine in 96 minutes and
from the Chabot’s house to Dunkin Donuts in New
Hampshire in 88 minutes. Def.’s Ex. B. Both
affidavits also referenced Defendant’s story that he
had been awake off and on throughout the early
morning hours of December 18, 2014 working on a
presentation, and Sergeant Beaudoin noted that the
Defendant had sent and received several emails.
Based on all of this information, there was
more than a fair probability that evidence of the
crime would be found in the Defendant’s home and
vehicle. 10 For the same reasons, the later warrants

I would reach this same conclusion about the facial validity of
the warrant even if I had excised the fact that the Defendant’s
hood was warm to the touch. The warm hood is relevant to
establish that the Defendant was up and about in the early
hours of December 18th. The video recording showing the
Defendant at Dunkin Donuts at 4:50 a.m. serves that purpose
as well.
10

131

were also supported by probable cause. The
December 18, 2014 anticipatory search warrant for
the Defendant’s vehicle and the December 23rd
search warrant for 16 of the Defendant’s electronic
items were both supported by an essentially identical
version of Detective Williams’s affidavit.
Further, the January 16, 2015 search warrant
for the Defendant’s external hard drive, laptop, and
laptop travel bag was supported by an updated
version of Detective Williams’s affidavit which
contained significant additional evidence. Finally, in
support of the January 20, 2015 warrant for a buccal
swap, Special Agent Flick averred that preliminary
testing showed a positive match between the
Defendant’s DNA and material taken from a swab of
the area of the broken window at the Chabot’s home.
Each affidavit was supported by probable cause, and,
accordingly, the Defendant’s facial challenge fails.

132

B. False Statements and Material Omissions

The Defendant also contends that he is entitled to a
Franks hearing because the affidavits submitted in
support of the warrant applications contained false
statements and material omissions. Def.’s Mot. to
Suppress Search Warrants 10. Additionally, the
Defendant contends that both Sergeant Beaudoin
and Detective Williams’s affidavits omitted material
information that, although not known to them
individually, should be imputed to them under the
collective knowledge doctrine. Affidavits supporting
search warrants are presumptively valid. Franks v.
Delaware, 438 U.S. 154, 171 (1978). This
presumption is not absolute and a defendant may
overcome the presumption during an evidentiary
hearing known as a Franks hearing. Id. However, in

133

order to be entitled to such a hearing, a defendant
must first make two “substantial preliminary
showings: (1) that a false statement or omission in
the affidavit was made knowingly and intentionally
or with reckless disregard for the truth; and (2) the
falsehood or omission was necessary to the finding of
probable cause.” United States v. Rigaud, 684 F.3d
169, 173 (1st Cir. 2012) (citation and internal
quotation marks omitted). If a party cannot establish
both elements, then a Franks hearing is not
warranted. Id. If a hearing is held, suppression of the
evidence seized is justified if “the defendant proves
intentional or reckless falsehood by preponderant
evidence and the affidavit’s creditworthy averments
are insufficient to establish probable cause.” United
States v. Tanguay, 787 F.3d 44, 49 (1st Cir. 2015).
An affiant is not required to include “every
shred of known information . . . in a warrant

134

affidavit.” Id. However, in some situations “[a]
material omission of information may . . . trigger a
Franks hearing.” United States v. Castillo, 287 F.3d 21,
25 (1st Cir. 2002). An omission only triggers a Franks
hearing “if it is designed to mislead, or . . . made in
reckless disregard of whether [it] would mislead, the
magistrate in his appraisal of the affidavit.” Tanguay,
787 F.3d at 49 (citation and internal quotation marks
omitted). Moreover, the omitted material must
nullify the finding of probable cause when considered
with the remainder of the affidavit. Castillo, 287 F.3d
at 25 n.4 (“With an omission, the inquiry is whether
its inclusion in an affidavit would have led to a
negative finding by the magistrate on probable
cause.”).
Allegations of deliberate falsehoods or
material omissions must be accompanied by an offer
of proof, such as affidavits or sworn statements of

135

witnesses, or their absence satisfactorily explained.
Franks, 438 U.S. at 171; see also United States v.
Scalia, 993 F.2d 984, 987 (1st Cir. 1993). Self-serving
statements by the Defendant and arguments
contained in briefs are insufficient. See United States
v. McDonald, 723 F.2d 1288, 1294 (7th Cir. 1983).
Here, in his motion to suppress the Defendant
identified portions of the warrants’ affidavits that he
claimed were false and he pointed to several material
omissions from the warrants’ affidavits. He did not,
however, provide any affidavits or sworn statements
of witnesses. Despite the lack of a substantial
preliminary showing, the Defendant was able to
cross-examine both Sergeant Beaudoin and Detective
Williams at an evidentiary hearing. At the close of
the hearing, defense counsel indicated that there
were additional discrepancies between recorded
interviews and police reports, and that other

136

material information could have been left out of the
affidavits. Defense counsel indicated that additional
live testimony was not needed to make that showing.
I allowed the Defendant an opportunity to file a
supplemental brief.

1. Alleged False Statements and Material Omissions
in the Beaudoin
Affidavit

The Defendant contends that the affidavit
drafted by Sergeant Beaudoin on December 18, 2014
contains numerous false statements and material
omissions.

a. Paragraph 4’s Reference to a “Homicide”

137

First, the Defendant claims that paragraph
four of the Beaudoin affidavit is false and misleading
because it refers to the crime as a homicide rather
than an attempted murder. Def.’s Mot. to Suppress
Search Warrants 5. Sergeant Beaudoin testified that
he was initially informed that the police were looking
for a homicide suspect in Londonderry and when he
drafted the affidavit, he did not know whether the
victims were going to live or die. Even assuming that
Sergeant Beaudoin’s statement was intentionally
false, the statement would not have affected the
probable cause analysis. See Rigaud, 684 F.3d at
173.

b. Paragraph 7’s Reference to Owens as a
“Suspect”

138

In paragraph seven of his affidavit, Sergeant
Beaudoin described the Defendant as a suspect.
Def.’s Ex. A ¶ 7. I see nothing wrong with the
affidavit’s identification of the Defendant as a
suspect. By the time the affidavit was submitted, the
Defendant was clearly a suspect.

c. Paragraph 10’s Statement that Owens did not
Ask What Happened to his Wife.

In paragraph 10 of his affidavit, Sergeant
Beaudoin noted:
“After he signed the Miranda form, I informed Mr.
Owens that his wife had been shot but that she was
still alive and in surgery. He showed relief, but did
not ask what had happened.” Def.’s Ex. A ¶ 10. The
Defendant argues that this statement is false and
that it is belied by the video recording of the

139

interview of the Defendant, in which the Defendant
did ask about what happened to his wife. Def.’s Mot.
to Suppress Search Warrants 6; Def.’s Suppl. Brief 6
(ECF No. 61).
On the videotape, after the Defendant signs the
Miranda Form, he asks, “status of my wife?” Sergeant
Beaudoin states, “she’s at the hospital right now.”
The Defendant states, “she’s alive,” and Sergeant
Beaudoin confirms, “she’s alive.” The Defendant
leans back, loses composure for a few seconds, and
then asks, “prognosis?” Sergeant Beaudoin states:
“We’re not sure right now. She’s still in surgery. But
she is still alive right now.” The Defendant then
asks: “Steve? Carol?” Sergeant Beaudoin states:
“Right now he is still alive too, and he is also in
surgery.” The Defendant then asks: “Any idea what
happened?” Sergeant Beaudoin then explains that
the police are investigating. The interview then goes

140

on into different topics, and the Defendant, although
emotional from time to time in the interview, does
not inquire further about what happened to his wife
until about 75 minutes into the interview when
Detective Cook joins, and the Defendant again asks:
“Status of my wife?” About 130 minutes into the
interview, the Defendant asks if the Maine Police
know where his wife was shot.
Sergeant Beaudoin’s statement that the
Defendant did not “ask what happened” in
Paragraph 10 of the Beaudoin affidavit is technically
false. The Defendant did ask what happened to his
wife just after the Miranda warning was given. At the
suppression hearing, Sergeant Beaudoin explained
that he meant that the Defendant’s reaction was not
as forceful as Sergeant Beaudoin expected. It is true
that the Defendant did not ask follow up questions
about what happened after Sergeant Beaudoin

141

initially explained that the police were still
investigating. Sergeant Beaudoin’s general
impression that the Defendant did not react as
forcefully as he would have expected is reasonable
when assessed in context of the entire interview.
Although the Defendant made several inquiries
about his wife’s status throughout the three-hour
interview, he did not ask many questions about what
had happened. I find that the statement in
Paragraph 10 that the Defendant did not inquire
about what happened to his wife is, at most, a
reckless falsehood. But I also find that even
excluding this misstatement, the creditworthy
averments in the affidavit are sufficient to establish
probable cause.

d. Missing Information about Blood and
Gloves

142

The Defendant also contends that paragraph
10 omits two key facts: (1) that blood was not found
in the vicinity of the window that was broken to gain
entry into the Chabot’s home; and (2) that Steven
Chabot said the shooter was wearing gloves. Def.’s
Mot. to Suppress Search Warrants 6. Sergeant
Beaudoin credibly testified that he was unaware that
blood was not found at the point of entry into the
Chabot’s home and that he could not recall ever
hearing that the intruder was described as wearing
gloves. 11 Even if I were to find that Sergeant
Beaudoin intentionally or recklessly omitted these

The Defendant also faults Detective Williams’s affidavit for
leaving out this information. Detective Williams testified that
he did not learn about the lack of blood at the point of entry
until months after he drafted his affidavit. He also testified that
he did not know that Steven Chabot had described the shooter
as wearing gloves when he drafted his affidavit on December
18th, 2014. This testimony was also credible and I find no basis
for concluding that either officer deliberately omitted this
information.
11

143

facts, their inclusion in the warrant would not
extinguish probable cause.

e. Paragraph 11’s Reference to Firearms

The Defendant also argues that Sergeant
Beaudoin mischaracterized how the Defendant spoke
about his firearm collection in paragraph 11. The
Defendant argues that he did not initially offer that
he owned 9mm handguns until Sergeant Beaudoin
specifically asked about that type of weapon.
However, Sergeant Beaudoin’s statement in his
affidavit is fairly consistent with the video recording
of his interview with the Defendant. Contrary to the
Defendant’s argument, the Defendant is the first
person to mention 9mm handguns. The Defendant
implies that he owns 9mm handguns because he says
he trains with departments that use them. This then

144

leads Sergeant Beaudoin to ask the Defendant
directly whether he owns this type of weapon. The
differences between Sergeant Beaudoin’s account in
his affidavit and the video recording of the interview
are minor inconsistencies caused, at most, by
negligence. Conduct that is negligent or the result of
innocent mistake is not enough to warrant a Franks
hearing. Franks, 438 U.S. at 171 (“Allegations of
negligence or innocent mistake are insufficient.”);
United States v. Soto, 779 F. Supp. 2d 208, 223 (D.
Mass. 2011) (“A showing of negligence or good faith
factual error is insufficient to trigger a Franks
hearing.”).

f. Paragraph 12’s Reference to the Defendant
Changing his Story

145

Finally, the Defendant suggests that Sergeant
Beaudoin falsely claimed in paragraph 12 that the
Defendant changed his story when he was
interviewed by
Detective Cook to include the fact that the
Defendant went to Dunkin Donuts. Def.’s Ex. A ¶ 12.
A review of the video recording confirms that the
Defendant initially left out the fact that he made a
trip to Dunkin Donuts when he first explained his
whereabouts to Sergeant Beaudoin and Sergeant
Pinardi at the beginning of the interview. While
going over his story again with Beaudoin and
Pinardi, the Defendant mentions his trip to Dunkin
Donuts for the first time. Although Sergeant
Beaudoin was wrong about precisely when the
Defendant’s story changed, he was correct that it had
changed. The Defendant’s attempt to characterize
this minor discrepancy as a false statement made

146

intentionally or with reckless disregard for the truth
is unpersuasive. At worst, the inconsistency between
the video and the affidavit was a mistake, not an
intentional or reckless act. 12

2. Alleged False Statement and Material Omissions
in Detective Williams’s Affidavits

The Defendant further contends that the
affidavits drafted by Detective Williams contain
numerous false statements and material omissions
.

The Defendant also argues that paragraph 16 of Sergeant
Beaudoin’s affidavit incorrectly states that the Defendant
12

was at Dunkin Donuts at 4:50 a.m. Def.’s Mot. to
Suppress Search Warrants 6. This argument appears to
be based on paragraph 11 of Detective Williams’s affidavit
which erroneously stated the Defendant was at Dunkin
Donuts at 4:15 a.m. Detective Williams credibly testified
that this error was the result of a miscommunication over
the telephone. Further, Detective Williams’s later
affidavits clarify that the correct time is 4:50 a.m. See
Def.’s Ex. C ¶ 15.
147

a. Paragraph 5’s Description of Suspect

The Defendant attacks paragraph five of Detective
Williams’s affidavit because it describes the
Defendant as wearing all black with a black ski mask
and this “is not the same as the description of
clothing that Sergeant Beaudoin attributes to [the]
Defendant at the time he [makes] contact with law
enforcement.” Def.’s Mot. to Suppress Search
Warrants 7. I fail to see how this purported
inconsistency can be characterized in any way as
false or misleading. It is not uncommon for a suspect
to change clothes in an attempt to avoid detection.

b. Omission of Defendant’s Estimate of
Travel Time

148

Next, the Defendant faults Detective
Williams’s affidavit for failing to note that the
Defendant estimated that it takes over two hours to
travel from Londonderry to Saco. Def.’s Mot. to
Suppress Search Warrants 7. In Paragraph 12 of his
affidavit, Detective Williams includes the mileage
and estimated travel times between pertinent points.
Detective Williams testified that he used Google
Maps to get the information. The Defendant claims
that the omission was material because the shooting
occurred at approximately 2:47 a.m. in Saco and the
Defendant arrived at Dunkin Donuts in New
Hampshire at 4:50 a.m. This claim is unconvincing.
The most relevant time period is the objective fact of
how long it takes to travel from Saco to Londonderry,
not the Defendant’s own self-serving version of how

149

long the trip normally takes him. 13 Even if this
information had been included in Detective
Williams’s affidavit along with the Google Maps
calculations, this would not have impacted the
finding of probable cause. A reviewing magistrate
would certainly afford more weight to an objective
estimate of the time it takes to complete the trip
than the Defendant’s own assessment. 14

c. Omission of Intruder’s Order of Attack

I would also note that the Defendant mentioned at the
beginning of his interview that it takes him around 90 minutes
to drive from his home to Rachel Owens’s parents’ home in
Saco, Maine. It was only later in the interview that the
Defendant stated that it takes him over two hours to reach
Saco, Maine.
13

At some point in the investigation, Detective Williams was
made aware that the Defendant’s Transpass was not used on
December 18, 2014. Detective Williams could not remember
when he became aware of this information. The Defendant has
not provided any evidence suggesting that this information was
known by Detective Williams before he drafted his affidavits.
Moreover, a reviewing judicial official could easily conclude that
a defendant would be unlikely to use a Transpass en route to an
attempted murder.
14

150

At the suppression hearing and in his
supplemental brief, the Defendant argued that
Detective Williams omitted from his affidavit the fact
that the intruder first went after Carol Chabot, not
Rachel Owens. To the contrary, Detective Williams’s
affidavit specifically mentions the fact that the
intruder first attempted to gain entry into the room
where Carol Chabot was hiding. Def.’s Ex. B ¶ 6.

d. Failure to Include Rachel Owens’s
Description of Intruder

The Defendant claims that by the time
Detective Williams drafted his December 23, 2014
affidavit, Rachel Owens had provided a statement to
Detective Granata describing the intruder as being
dark skinned with wild hair. The Defendant

151

contends that Detective Williams intentionally or
recklessly omitted this material information.
Detective Williams testified that he was
unaware of any such description by Rachel Owens.
He testified that he could not remember when he
reviewed Detective Granata’s report but that it was
after he had written all of his affidavits. Detective
Williams also testified that he had spoken with
Detective Granata in the weeks after the shooting,
but that he did not know the exact date. Defense
counsel used the Granata report, marked for
identification only as Defendant’s Exhibit 9, to
refresh Detective Williams’s recollection. After
handing the report to Detective Williams, defense
counsel asked whether Detective Granata ever told
Detective Williams that Rachel Owens described the
intruder as having wild hair or dark skin, and
Detective Williams indicated that he did not recall

152

Detective Granata ever saying that. Defense counsel
then asked to have the report back. With this line of
questioning, defense counsel left me with the
impression that Detective Granata’s report contained
information that Rachel Owens had described the
Defendant as having wild hair and dark skin.
Defense counsel’s line of questioning was reinforced
by the Defendant’s motion to suppress in which the
Defendant states: “By the time Detective Williams
authors this affidavit Rachel Owens has been
interviewed and had indicated that she saw her
attacker and her attacker was a dark skinned man
who appeared to be Jamaican and had wild spiky
hair. This fact is absent from the warrant
application.” Def.’s Mot. to Suppress Search
Warrants 8. The Defendant takes the impression one
step further in his supplemental brief where he
states: “Detective Granata interviewed Rachel

153

Owens again on December 19, 2015. At that time
Mrs. Owens indicated that the shooter had ‘wild
looking hair’ and that the intruder’s skin and
clothing and skin [sic] were dark. See Audio
recording of 12/19/14 Interview with Rachel Owens.”
Def.’s Suppl. Brief 3. Although the Defendant cites
the audio recording, he does not provide the
recording or any evidence establishing that Rachel
Owens did in fact describe the intruder as being
dark-skinned with wild hair.
Defendant’s Exhibit 9, which purports to be
pages three and four of Detective Granata’s report,
recaps Detective Granata’s interview with Rachel
Owens on December 18th, but it does not state that
Rachel Owens described her assailant as dark
skinned or Jamaican looking with wild, spiky hair.
Ordinarily, an exhibit not in evidence should not be
considered, however, where defense counsel has

154

created a false impression about the Granata report,
I think I am entitled, if not obligated, to correct the
record.
The Government, in closing arguments,
contested that Rachel Owens ever said anything
about dark skin and spiky hair. In response, defense
counsel stated that her notes indicated that Carol
Chabot (who never saw the intruder) may have given
that description. Given that the confusion on this
issue was apparent at the hearing, the Defendant’s
failure to come forward with evidence speaks
volumes.
I credit Detective Williams’s testimony that
Detective Granata never relayed to him information
that Rachel Owens described the attacker as dark
skinned or wildhaired. Since I conclude that
Detective Williams did not possess the information, I

155

find that he did not intentionally or recklessly omit
it.

e. Omission of Key Facts of the Defendant’s
Affair

The Defendant also takes issue with Detective
Williams’s affidavit in support of the January 16,
2015 search warrant for the Defendant’s external
hard drive and laptop computer. In that affidavit,
Detective Williams stated that the Defendant had
been having an affair since 2008. The Defendant
contends that Detective Williams omitted the key
fact that Rachel Owens was aware of his affair. This
argument is unavailing, as Detective Williams
presented credible testimony that he never learned
that Rachel Owens was aware of her husband’s
affair.

156

3. Omissions of Information Known by Other
Officers Under the Collective Knowledge Doctrine

In his supplemental brief, the Defendant
identifies numerous “facts” 15 that he claims “pointed
away from [his] involvement in the crime” and

The Defendant points to the following “facts”: 1) The firstresponding officer’s noting of a Nissan Pathfinder in the area of
the crime scene; 2) Detective Granata’s hospital interview of
Rachel Owens in which she described the suspect as darkskinned with wild hair and referred to the intruder as “they”; 3)
an initial interview of Carol Chabot in which she stated that
she had a lot of jewelry in the house and that her husband had
important work computers; 4) a January 5, 2015 interview of a
neighbor of the Chabot’s who saw a dark-skinned jogger
wearing boots in the neighborhood at around 2:30 a.m. on
December 17, 2014; 5) emails recovered in late December which
suggest that Defendant sent email in the early morning hours
of December 18, 2014; 6) information about the credibility of the
Defendant’s business associate who told police that the
Defendant had asked him to provide an alibi; 7) an officer’s
review of video on December 23, 2014 which did not show
Defendant’s car crossing two bridges into Maine on the night of
the shootings; 8) information taken from video surveillance at a
convenience store near the crime scene which showed two
vehicles near that area at the time of the shooting neither of
which were the Defendant’s vehicle; and 9) information
obtained from the lead investigator for the Saco Police on the
morning of December 18th that both victims were expected to
survive. Def.’s Suppl. Br. 2-4.
15

157

argues that these “facts” should have been included
in the affidavits. 16 Def.’s Suppl. Br. 2. The Defendant
contends that even though these facts were not
known to the affiants, the information should be
imputed to them under the collective knowledge
doctrine. Def.’s Suppl. Brief 1-2. This doctrine,
generally relied on by the prosecution, allows the
“‘collective knowledge possessed by . . . all the officers
involved in the investigation’ ” to be used in
determining whether probable cause or reasonable
suspicion exists. United States v. Brown, 621 F.3d 48,
57 (1st Cir. 2010) (quoting United States v.
Winchenbach, 197 F.3d 548, 555 (1st Cir. 1999)). In
attempting to use this doctrine against the

In his supplemental brief, the Defendant cites to different
video and audio recordings, but he does not offer them as
evidence. Despite the Defendant’s failure to provide an offer of
proof on these additional alleged omissions, I will address the
Defendant’s arguments on the omissions of information known
by other officers under the collective knowledge doctrine.
16

158

government, the Defendant contends that
exculpatory information in the possession of any
officer investigating the crime must be imputed to
the affiant.
While it is true that the police cannot “insulate
one officer’s deliberate misstatement merely by
relaying it through an officer-affiant personally
ignorant of its falsity,” Franks, 438 U.S. at 163 n.6,
and while the same principle has also been applied to
deliberate omissions, United States v. DeLeon, 979
F.2d 761, 764 (9th Cir. 1992), every fact known to
any officer involved in an investigation does not have
to be imputed to the affiant. Investigations like this
one, involving a violent offender, unfold on multiple
levels at a rapid pace. “An omission triggers the
exclusionary rule only if it is ‘designed to mislead, or
. . . made in reckless disregard of whether [it] would
mislead, the magistrate’ in his appraisal of the

159

affidavit.” Tanguay, 787 F.3d at 49 (quoting United
States v. Colkley, 899 F.2d 297, 301 (4th Cir. 1990)).
Thus, the doctrine recognized in Franks and DeLeon
is wisely limited to deliberate or reckless material
misrepresentations or omissions by non-affiants.
See, e.g., United States v. Miller, No. 6:11-cr-00004,
2012 WL 1414853, at *4 (W.D. Va. Apr. 24, 2012),
aff'd, 534 F. App'x 204 (4th Cir. 2013).
Moreover, “[b]ecause there is no requirement
that every shred of known information be included in
a warrant affidavit, the omission of a particular
detail, without more, is not enough to satisfy the
mens rea element of the Franks test.” Tanguay, 787
F.3d at 49. Information that is not within the
personal knowledge of the affiant which has only
“peripheral relevancy to the showing of probable
cause” need not be included in an affidavit.
Rugendorf v. United States, 376 U.S. 528, 532 (1964).

160

If the rule were otherwise, law enforcement would be
confronted with “endless conjecture about
investigative leads, fragments of information, or
other matter that might, if included, have redounded
to defendant’s benefit.” Colkley, 899 F.2d at 301.
The Defendant has provided the court with a
laundry list of “facts” that he claims should have
been included in the warrants, but he fails to make
the required showing that any of the information was
omitted with the requisite intent to mislead or with
reckless disregard for whether it would mislead.
Even if I were to treat the Defendant’s “facts” as
intentionally or recklessly omitted, and assumed for
the purposes of argument that all of the Defendant’s
facts were known by the police on December 18,
2014, the inclusion of this information would not
have undermined the probable cause in any of the
affidavits. The fact that a car different from those

161

owned by the Defendant was seen in the vicinity of
the Chabot house or that the Defendant’s cars were
not seen on surveillance videos taken from a
convenience store and two bridges would not have
defeated the probable cause set forth in any of the
warrants. If this information had been included in
the warrants, it would have been balanced by
context. For example, the affiant would have
explained that, although the
Defendant’s vehicles were not seen in the
surveillance videos from the Sarah Long and
Memorial Bridges, the police had not reviewed
surveillance tapes from any other bridges, including
the Interstate 95 bridge into Maine.
Similarly the Rachel Owens interview, in
context, would not have undermined a finding of
probable cause. Rachel Owens observed an intruder
at night. According to Steven Chabot, the intruder

162

was dressed in dark clothes wearing a dark ski mask.
Rachel Owens suffers from early onset dementia. She
gave the description shortly after she had been shot
in the head and endured hours of surgery. In context,
this description has significantly less evidentiary
value. Nor would the comment by Carol Chabot
regarding jewelry and computers in the house have
undermined probable cause, particularly since none
of those items was taken.
The alleged emails sent by the Defendant
during the early morning hours of December 18,
2014 would not nullify the showing of probable cause
either, since an individual does not need to be at his
home to send an email. Likewise, inclusion of the
Chabot’s neighbor’s description of a dark-skinned
jogger running in the neighborhood 24 hours before
the shooting would not have negated probable cause.
Even if all of this information had been included in

163

the warrant affidavits prepared by Sergeant
Beaudoin and Detective Williams on December 18,
2014, probable cause to search would still exist.
Finally, the Defendant fails to account for the
time the information was learned and the evolving
nature of the investigation. For example, the
Defendant takes issue with marginally relevant
credibility evidence about a co-worker who said that
the Defendant had asked him to provide an alibi. But
by January 16th, when the co-worker’s information
was used, Detective Williams’s affidavit contained
the additional evidence that the police had made a
preliminary positive match between the Defendant’s
DNA and DNA found at the scene of the shooting,
had discovered tampering with the clock on the
Defendant’s computer, and had learned that the
Defendant was involved in an extra-marital affair.
Assessed against the mounting evidence contained in

164

the later warrants, the inclusion of these laterlearned facts clearly would not have influenced the
probable cause analysis.

CONCLUSION

For the reasons stated above, the Court
DENIES the Defendant’s motion to dismiss (ECF No.
40), DENIES the Defendant’s motion to suppress
search warrants (ECF No. 41), and DENIES the
Defendant’s motion to suppress search of vehicle in
driveway (ECF No. 43).
SO ORDERED
/s/ Nancy Torresen
United States Chief District Judge
Dated this 23rd day of October, 2015.

165

Appendix C
United States Court of Appeals For the First Circuit
No. 16-1945
UNITED STATES
Appellee
v.
GREGORY OWENS
Defendant - Appellant
Before Howard, Chief Judge, Torruella, Lynch,
Thompson, Kayatta and Barron, Circuit Judges.
ORDER OF COURT Entered: March 27, 2019
Pursuant to First Circuit Internal Operating
Procedure X(C), the petition for rehearing en banc
has also been treated as a petition for rehearing
before the original panel. The petition for rehearing
having been denied by the panel of judges who
decided the case, and the petition for rehearing en
banc having been submitted to the active judges of
this court and a majority of the judges not having

166

voted that the case be heard en banc, it is ordered
that the petition for rehearing and petition for
rehearing en banc be denied.
By the Court:
Maria R. Hamilton, Clerk
cc: Sarah Ann Churchill, Gregory Owens, Renee M.
Bunker, Sangita K. Rao, James William, Chapman
Jr., Darcie N. McElwee, John Michael Pellettieri,
Maine Victim Compensation Fund, Patrons
Insurance, NexClaim Recoveries

167

